<html>
<title> - EXAMINING THE OIL INDUSTRY'S EFFORTS TO SUPPRESS THE TRUTH ABOUT CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      EXAMINING THE OIL INDUSTRY'S
                        EFFORTS TO SUPPRESS THE
                       TRUTH ABOUT CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2019

                               __________

                           Serial No. 116-67

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-304 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       
                       
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody B. Hice, Georgia
Ayanna Pressley, Massachusetts       Michael Cloud, Texas
Eleanor Holmes Norton, District of   Carol D. Miller, West Virginia
    Columbia                         Frank Keller, Pennsylvania
                        
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on October 23, 2019.................................     1

                               Witnesses

Dr. Martin Hoffert, Former Exxon Consultant, Professor Emeritus, 
  Physics, New York University
Oral Statement...................................................     7
Dr. Ed Garvey, Former Exxon Scientist
Oral Statement...................................................     8
Dr. Naomi Oreskes, Professor, History of Science, Affiliated 
  Professor, Earth and Planetary Sciences, Harvard University
Oral Statement...................................................    10
Ms. Sharon Eubanks, Of Counsel, Henderson Law Firm, PLLC
Oral Statement...................................................    12
Dr. Mustafa Ali, Vice President, Environmental Justice, Climate 
  and Community Revitalization, National Wildlife Federation
Oral Statement...................................................    14
Ms. Mandy Gunasekara, Founder, Energy 45, Senior Fellow, Life: 
  Powered Project
Oral Statement...................................................    16

  * Written opening statements and statements of the witnesses 
  are available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

  * Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  https://docs.house.gov.

  * Unanimous Consent: Exxon internal memos dated June 6, 1978, 
  October 16, 1979, August 3, 1998, October 13, 1997; submitted 
  by Chairman Raskin.

  * American Petroleum Institute Action Plan dated April 3, 1998; 
  submitted by Chairman Raskin.

 
                      EXAMINING THE OIL INDUSTRY'S
                        EFFORTS TO SUPPRESS THE
                       TRUTH ABOUT CLIMATE CHANGE

                              ----------                              


                      Wednesday, October 23, 2019

                   House of Representatives
    Subcommittee on Civil Rights and Civil 
                                  Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Wasserman Schultz, Kelly, 
Gomez, Ocasio-Cortez, Pressley, Norton, Roy, Massie, Miller, 
Keller, and Comer.
    Also present: Representative Comer.
    Mr. Raskin. Good morning, everyone. The subcommittee will 
now come to order. Without objection, the chair is authorized 
to declare a recess of this committee at any time.
    Today's hearing examines the oil industry's knowledge and 
awareness of climate change and how its climate change denial 
campaign has affected people of color and vulnerable 
populations in our country and around the world.
    I will now recognize myself for five minutes, but before 
we're going to show a quick video, if we could run that.
    While we're cueing that up, I want to welcome all of our 
witnesses. Thank you for coming. And thanks to all of our 
participants. There are some other hearings going on. Mr. 
Zuckerberg is down the hall. And, of course, the impeachment 
investigation continues. So members will be coming in and out 
as their schedules permit.
    Are we okay now? No.
    All right. Well, let me go ahead and start with my 
statement, and we'll come back to the video.
    But before I begin, I want to take a moment to recognize 
our beloved colleague and friend, Chairman Elijah Cummings, who 
chaired our committee.
    He believed with all of his heart and all of his mind that 
government must be an instrument for the common good of all the 
people. His passion for freedom, for justice, for strong 
democracy will infuse the work of this subcommittee and the 
committee generally for generations to come.
    As our Nation mourns him, many people have been sharing 
some of Elijah's most inspirational aphorisms, one of which is 
apt for our purposes today. In a 2016 hearing about the 
environmental and public health crisis unfolding in Flint, 
Michigan, Elijah called on his colleagues to recognize the 
moral gravity of the situation, and he said, quote, ``Our 
children are the living messages that we send to a future that 
we'll never see. The question is, will we rob them of their 
destiny? Will we rob them of their dreams? No, we will not do 
that.''
    His words echo for us in the investigation of climate 
change, the civilizational emergency of our times, which 
threatens all of the rights and freedoms of the people, 
including the right to live.
    Climate change is one of the preeminent emergencies facing 
our country. The evidence seems overwhelming that for decades 
the oil industry understood the lethal threat of climate change 
but misled the American people and buried the scientific truth 
of climate change. The industry has deprived the people of 
crucial information, with predictable and lopsided results. 
Working people, without the time or money to fight back against 
big oil, are paying the heaviest price now for climate change.
    Oil companies like Exxon knew the scientific reality 40 
years ago but waged a war of deception that cost us precious 
time in the fight to save our planet.
    If we can put that slide up on the screen.
    In 1977, Exxon scientist James Black told the company's top 
executives that fossil fuel usage was releasing enough carbon 
dioxide to change the planet's climate.
    Two years later, in 1979, an internal Exxon memo noted that 
the buildup of CO2 in the atmosphere would, quote, ``bring 
about dramatic changes in the world's environment.'' That's in 
1979 they had a memo pointing that out, that there would be 
dramatic changes in the environment.
    In a 1981 memo, Exxon executive Roger Cohen cautioned 
against understating the threat to our planet, warning that the 
Earth's temperature could rise so high that it would, quote, 
``produce effects which will indeed be catastrophic, at least 
for a substantial fraction of the population.'' That's in 1981 
that Exxon executive Roger Cohen was warning of this.
    Exxon knew decades ago that climate change was real and 
would have devastating consequences if left uncorrected. In 
fact, according to Exxon scientist Ed Garvey, who is here 
today, Exxon was so certain of its science that it originally 
sought to be part of the solution and launched a sophisticated 
research program aimed at further understanding the full range 
of carbon dioxide's effects on our planet.
    To Exxon's credit, its scientists were at the forefront of 
this research, and their dire predictions turned out to be 
frighteningly accurate.
    When faced with the reality of the massive damage fossil 
fuels were likely to cause, Exxon could have chosen to present 
this truth to the American public, redirect its own research 
and development resources, and lead the way to a global shift 
toward alternative energy sources.
    But this was not the path that Exxon chose. Instead, it 
sold off its renewable energy companies, it doubled down on 
fossil fuels, and along with other big oil companies like, 
Shell and Mobil, it launched an extensive and sinister campaign 
of climate denial, undermining the work and the warnings of its 
own scientists.
    To make matters worse, big oil companies fortified their 
own infrastructure against climate change, factoring in the 
anticipated rise in temperatures and sea levels when deciding 
how and where to build their own infrastructure.
    This revealing course of conduct simply gives the game 
away. They used their knowledge of climate change to protect 
their future profits, while preventing the American people from 
acting together to protect our collective future. They used 
their knowledge of climate change for purposes of corporate 
planning, but publicly denied the reality of climate change for 
purposes of national planning.
    This contradiction is at the heart of our hearing today. 
The oil industry's denial campaign placed private corporate 
interests above the national public interest, and now poor and 
minority communities are bearing the brunt of the devastating 
effects of climate change.
    Climate change has already had a disproportionate effect on 
low-income communities and communities of color, from New 
Orleans to Puerto Rico, the people who are often said to suffer 
first and worst.
    Rising sea levels threaten to displace coastal and island 
communities. Government efforts are already underway to 
relocate Native American tribes in Louisiana and Alaska whose 
lands are vanishing into the ocean. Immigrants from Central 
America are migrating here to escape famine and drought caused 
by global warming.
    Urban neighborhoods suffer disproportionately from rising 
temperatures. In Chairman Cummings' hometown of Baltimore, 
lower-income areas of the city were as much as six degrees 
hotter than the cooler, wealthier, tree-lined neighborhoods of 
the city. Hurricanes and wildfires are increasing in frequency 
and intensity, trapping poor people who cannot afford to 
evacuate or who struggled to rebuild their lives after losing 
everything to floods and flames.
    In short, climate change produces the most devastating 
effects on those who can least afford to manage it.
    The decades-long denial campaign has twisted and perverted 
our democracy. By funding climate denial and lobbying against 
governmental action, big oil has not only achieved a loud and 
distorting voice in the climate change debate, it has also 
deprived voters and policymakers of the materials and the 
ability necessary to make informed decisions about this 
fundamental challenge to the future of human existence.
    James Madison said, quote, ``A people who mean to be their 
own Governors must arm themselves with the power that knowledge 
gives.'' The people have been denied the power that knowledge 
gives, which means that we've effectively been governed by Big 
Oil with respect to climate change.
    We are thankfully beginning to see momentum shifting toward 
action to prevent the further destruction of our climate 
system, but we must remain wary of the feel good commercials 
and empty promises by companies that are still intent on 
deceiving the public. Exxon and their allies are continuing to 
fund climate denialism and explore new oil fields to exploit, 
even as the warnings from scientists grow increasingly dire 
about our situation.
    In closing, I return to the words of Chairman Cummings. At 
a climate change hearing in Oversight in April, Elijah noted 
that, quote, ``The true measure of leadership is whether we 
leave the world better for our children and our grandchildren 
and those yet unborn than we found it. Each day that we fail to 
act on climate change, we are risking the health and security 
of future generations.''
    In order to understand and confront the crisis we're 
facing, we must recognize the disastrous deception that brought 
us to the brink.
    As we contemplate how to stop the destruction of our 
planet, the oil industry appears committed to perpetuating its 
deception. I challenge everyone here today to answer 
Congressman Cummings' call. Will we allow climate denial to 
continue robbing our children of their destiny and their 
dreams?
    No, as Elijah said, we will not do that. We will find the 
truth, and the truth will start the process of setting us free. 
If we act with courage and resolve, the kind that Chairman 
Cummings exemplified, the truth will give us a second chance to 
get it right.
    I think our video is ready, and then I will turn to our 
ranking member.
    [Video shown.]
    Mr. Raskin. Okay. Now I'm delighted to recognize the 
ranking member, Mr. Roy from Texas, for his opening statement.
    Mr. Roy. I thank the chairman.
    Good morning. Before addressing today's hearing, I'd like 
to take a moment to express my deepest condolences to the 
family of Chairman Elijah Cummings, to my colleagues on this 
committee and throughout the body, and also to his staff. I 
know it is a great loss.
    I know just a couple months ago we were having a pretty 
nice sparring session here in this committee, as we are wont to 
do on occasion, and I had referenced my son. In the context of 
talking about him--my son happened to be here, and he was 
sitting back here in a chair, and the chairman graciously--this 
was July--asked to meet my son and sit and talk to him. We got 
a great photo of my son with the chairman that I will cherish, 
and I will miss him dearly, as I know many of us will.
    As always, I'd like to thank Chairman Raskin for his work 
with the subcommittee. I appreciate it very much and respect 
him immensely.
    With that, of course, here we go, we'll start our sparring. 
I must say, I'm puzzled a little bit as to why the Civil Rights 
and Civil Liberties Subcommittee is chosen for this topic. We 
have a Subcommittee on the Environment, and I think that might 
be a more natural place for it. But here we are.
    I would also suggest to you that if you're wondering why 
many of our colleagues aren't here, it's in significant part 
because the House majority has created a scheduling conflict. 
The House majority scheduled depositions today as part of their 
inquiry. As a result, members have been forced to choose 
between this hearing and the deposition. That choice is not 
very easy. So a lot of my colleagues are downstairs, which is 
where I would be if I weren't in this hearing right now.
    You know, in my opinion, there's been a lot of arbitrary 
rules set by the chairman that makes it difficult. A lot of 
members feel like they have to be there, because we're not 
easily able to go find the transcripts. We're not able to go 
see what's going on.
    Now, it's not obviously what we're here to discuss, but it 
merits at least discussion and recognition that this is what 
we're having to deal with, is a body right now without our 
ability to have our colleagues be able to see the information 
that Mr. Schiff is keeping secreted away in the bunker down 
below in a SCIF.
    But as to the topic that we're talking about here today, I 
think if you look at this, much of today's hearing has been 
seemingly orchestrated for some period of time. Some of the 
witnesses here today I think have been coordinating for years, 
going to meetings and discussing pursuing congressional 
hearings and getting sympathetic state attorneys general in an 
effort to secure documents from different oil and gas 
companies. The purpose of this hearing seemed to be to stir up 
a media frenzy and provide a story line for the current court 
case going on in New York, a case that isn't necessarily even 
involved, isn't even about allegedly covering up the truth 
about climate change anymore, but is instead about accounting 
disagreements in many respects.
    Demonizing companies and the Americans they employ for 
political gain does not seem to be a productive use of our 
time, while we sit here in an air conditioned hearing room, 
powered by natural gas from the Capitol Power Plant. That's 
where we sit.
    So let's just remember about how our lives are powered, 
right here today, with the electricity right here in this room, 
the air conditioning, the heat in this building throughout the 
winter, a gas-fired power plant, natural gas being the 
lifeblood of what we're seeing in a renaissance for energy in 
the United States of America, creating jobs and wealth and 
opportunity and developing and improving lives around the 
world.
    Today 815 million people around the world suffer from food 
insecurity, 900 million do not have access to electricity, and 
every year 3.5 million die of pollution from biomass they burn 
inside their homes.
    We have significant information demonstrating the explosion 
of affordable energy has increased the standard of living and 
nearly doubled life expectancies around the world. Over the 
past 25 years, more than a billion--a billion--people have 
lifted themselves out of poverty due in large part to access to 
electricity.
    Now, think about that. I was once in a focus group. 
Somebody said, ``Well, where do we want to get power?''
    ``Well, not from coal or gas. No, we don't want to get 
power from that.''
    ``Where do we want to get power?''
    The person said, ``From electricity.''
    ``Where does electricity come from?''
    ``It comes from a number of sources.''
    Texas, by the way, leads the Nation in all-of-the-above 
approach, in terms of wind and solar being a significant part 
of the grid in Texas. Yes, that great evil bastion of oil and 
gas, Texas, that Governor, Governor Perry, who for 14 years was 
driving an all-of-the-above approach in Texas.
    But at the end of the day, our grid in Texas still is 
massively powered by the dense energy that is available in 
fossil fuel, making lives better every single day, making a 
single mom be able to have access to affordable electricity 
every single day.
    Unlike the 54 or 55 million people in Europe choosing 
between heating and eating every day because of the onerous 
regulations placed on them, people in the United States of 
America, including the most vulnerable and the most poor among 
us, are able to have the lifeblood of power, of electricity, 
hospitals that are powered up, where babies have incubators 
that work, instead of people squeezing bags in Africa where you 
don't have access to power abundantly.
    So we sit here today talking about civil rights and civil 
liberties? Let's talk about the massive violation of civil 
liberties that will occur if we do as Elizabeth Warren has 
said: ban fracking. Let's crush the American economy and crush 
the jobs in not only Texas but around the United States and ban 
fracking in a fit of hysteria, undermining the very civil 
liberties of the Americans that depend on that affordable and 
available abundant energy.
    That's what we should be talking about. That's what we 
should be talking about when we're talking about civil 
liberties. And that's what I think we hope we'll have the 
discussion on today in this hearing.
    If you look at the number of people that have been driven 
out of poverty over the last 25 years, compare that to the 
chart of the doubling, tripling, quadrupling, six times amount 
available of gas, oil, and coal powering the world that has 
lifted people out of poverty throughout the world and the 
United States.
    With that, I will yield, Mr. Chairman.
    Mr. Raskin. Great. Thank you very much, Mr. Roy.
    I want to welcome our first panel of witnesses. We have Dr. 
Ed Garvey, a former scientist with Exxon Corporation; Dr. 
Martin Hoffert, a former consultant to Exxon and professor 
emeritus of physics at New York University; Dr. Naomi Oreskes, 
who is a professor of the history of science and affiliated 
professor of earth and planetary sciences at Harvard 
University; we have Sharon Eubanks, Esq., who is of counsel to 
the Henderson Law Firm; and, let's see, we have Dr. Mustafa 
Ali, who is the vice president, environmental justice climate 
and community revitalization at the National Wildlife 
Federation; and Mandy Gunasekara, who is the founder of Energy 
45, senior fellow at Life: Powered Project.
    I'm going to ask all of you to stand if you would and raise 
your right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God.
    Let the record show that all of our witnesses answered in 
the affirmative.
    Thank you very much. Please be seated. Please speak 
directly into the microphones. It's hard to capture voices if 
you're too far away. Without objection, all of your written 
Statements will be made part of the record.
    With that, Dr. Ali, you are now recognized to give a five-
minute presentation of your testimony. Forgive me. We're going 
to start with Dr. Hoffert and work our way down this way.
    Dr. Hoffert, you're first.

STATEMENT OF MARTIN HOFFERT, FORMER EXXON CONSULTANT, PROFESSOR 
             EMERITUS, PHYSICS, NEW YORK UNIVERSITY

    Mr. Hoffert. Thank you, sir.
    I, too, mourn the passing of Committee Chairman Elijah 
Cummings, who was a giant in the quest for bringing the 
American Dream to all, all of us.
    I want to thank Jamie Raskin, chair of the House 
Subcommittee on Civil Rights and Civil Liberties, Ranking 
Member Chip Roy, who we just heard, and all the subcommittee 
members, for giving me this opportunity to testify about my 
personal experience as consultant on the carbon cycle and 
climate at Exxon Research and Engineering, the issue that is of 
major importance here.
    I was recruited to work at Exxon Research as a consultant 
by my colleague Andrew Callegari, who headed a group on climate 
modeling and the carbon cycle at Exxon, and this was in 1981. I 
made it clear that for the Exxon lab science to be credible and 
for me to participate the work needed to be published in 
reputable science journals that were subject to peer review. 
This was welcomed, and though I remained a paid consultant only 
until 1987, I continued to publish science work with Exxon 
colleagues thereafter. Our group published eight peer-reviewed 
papers, three as a paid consultant and five thereafter.
    The work focused on understanding the carbon cycle and on 
the climatic effects of CO2 emissions and to bring Exxon 
colleagues Brian Flannery and Haroon Kheshgi up to speed on the 
latest research, be it tutorials and eventually published 
papers. These Exxon scientists were excellent researchers and 
were soon authoring papers themselves.
    I'm gratified that we did important work that is still 
cited today. And if I may say so, the quality of the scientific 
work at Exxon was high, and these were published in peer-
reviewed journals and incorporated into the knowledge base of 
how the Earth was evolving under the influence of fossil fuel 
emissions. But it would be a distraction to go into great 
technical detail at this point on our findings.
    Suffice it to say that our research was consistent with 
findings of the United Nations Intergovernmental Panel on 
Climate Change on human impacts of fossil fuel burning, which 
is that they are increasingly having a perceptible influence on 
Earth's climate.
    Impacts of climate change have become more pronounced over 
time. Scarcely a day goes by without news stories of major 
wildfires in the American West, river flooding unseen for 
hundreds of years, droughts, the disappearance of mountain 
glaciers, tundra melts, more intense hurricanes, melting sea 
ice in the Arctic, and glacier calving in Antarctica. I should 
say, I never thought that I would see that in my lifetime 
because of the thermal inertia of the Southern Ocean. Inside 
joke.
    All of which are consistent with the uncertainty spread of 
IPCC model predictions. If anything, adverse climate change 
from elevated CO2 is proceeding faster than the average of the 
prior IPCC mild projections and fully consistent with what we 
knew back in the early 1980's at Exxon.
    I worked with Exxon researchers for several reasons. First, 
they were excellent scientists who made positive contributions 
to the research. Second, I believed that having Exxon 
scientists on public papers, acknowledging the reality of 
climate change, could help reduce the polarization surrounding 
climate change science. And third, I hoped that the work would 
help to persuade Exxon to invest in developing energy solutions 
the world needed. I have much to say on this topic, but that's 
not the focus of this meeting.
    I want to emphasize that although my experience with Exxon 
researchers was positive, I was greatly distressed by the 
climate science denial program campaign that Exxon's front 
office launched around the time I stopped working as a 
consultant--but not collaborator--for Exxon.
    The advertisements that Exxon ran in major newspapers 
raising doubt about climate change were contradicted by the 
scientific work we had done and continue to do. Exxon was 
publicly promoting views that its own scientists knew were 
wrong, and we knew that because we were the major group working 
on this. This was immoral and has greatly set back efforts to 
address climate change.
    I cannot see into Exxon management's heart. Whatever its 
intent--willful ignorance, stymieing an effective response to 
preserve quarterly profits, or simply an incomprehensible 
refusal to incorporate their own world class researchers' 
results into their business plans, which is demonstrably 
counterproductive long-term--what they did was wrong. They 
spread doubt about the dangers of climate change when its 
researchers were confirming how serious a threat it was.
    The effect of this disinformation was to delay action, 
internally and externally. They deliberately created doubt when 
internal research confirmed how serious a threat it was. As a 
result, in my opinion, homes and livelihoods will likely be 
destroyed and lives lost.
    Thank you.
    Mr. Raskin. Thank you very much, Dr. Hoffert.
    Dr. Garvey.

         STATEMENT OF ED GARVEY, FORMER EXXON SCIENTIST

    Mr. Garvey. Good morning. Let me start also by saying that 
I want to express my sympathy to the panel for the loss of the 
chair. He was a great man and will be missed.
    Thank you for the opportunity to speak before the 
committee. I'm here to testify that Exxon considered rising CO2 
levels and the potential for CO2-driven climate change to be of 
sufficient concern to commit to a significant research effort 
in 1978. I personally participated in the data collection for 
this research effort, and I had firsthand knowledge of my 
management's objectives in collecting these data. I'd like to 
briefly describe to you some of the pertinent events and the 
managerial philosophy that was in place during my five-year 
tenure at Exxon Research and Engineering Company.
    I was hired in 1979 to assist a senior scientist at Exxon, 
Dr. Henry Shaw, in the development of a greenhouse gas research 
project. Exxon scientists, such as Dr. Black and Dr. Shaw, had 
raised this as an issue to the corporation. I was told by Dr. 
Shaw that Exxon undertook this research to earn itself a place 
at the table among scientists, policymakers, et cetera, 
regarding climate change and the potential responses to it.
    The research was intended to make an important contribution 
to the understanding of CO2 and climate science. The program 
was also intended to constitute a uniquely Exxon contribution 
to the science.
    In developing the program, we worked closely with Drs. 
Wallace Broecker and Taro Takahashi, geochemists with Columbia 
University. My managers at Exxon felt that a joint 
investigation with well-respected researchers, such as these 
scientists, would lend credibility to the effort.
    By working with leading scientists from academia and by 
contributing highly useful research, Exxon felt its opinions 
would be taken seriously regarding greenhouse gases and 
possible solutions to the problem.
    We ultimately selected Exxon International's 500,000-ton 
supertanker, the Esso Atlantic, to set up a dedicated 
monitoring system. The monitoring equipment would obtain 
measurements of CO2 in surface water and in the air as the ship 
traversed its normal routes. The program's goal was to 
understand the role of the ocean in the global carbon cycle and 
its role in storage of anthropogenic CO2.
    Exxon expended a very significant effort to design and 
support the equipment in the relatively harsh environment on 
board the tanker, over $900,000 per year at the program's peak.
    Exxon also planned to make known its commitment to the 
greenhouse gas studies. The videotapes of me on the ship that 
are now on the internet were made by professional photographers 
in 1979, with the intention of presenting the program to 
shareholders.
    The tanker project required the cooperation of multiple 
divisions within Exxon: the Exxon Research and Engineering 
Company, which employed Dr. Shaw and myself, Exxon 
International, and Exxon USA. It was my understanding that the 
Exxon corporate board was aware of the project given its 
magnitude, approved its implementation, and was kept apprised 
of its progress.
    Around 1980 or so, unrelated to the tanker project, Exxon 
expanded its research efforts into climate modeling. They hired 
several scientists from academia, including Dr. Brian Flannery, 
as well as Dr. Hoffert, to conduct this line of research.
    About two years later, the oil market experienced a 
significant downturn. Exxon began to lay off staff across the 
corporation and also ended the tanker project abruptly. To that 
point, we had published only one journal article on our work. I 
have included a copy of the article with my written statement.
    With the end of the project, I opted to leave Exxon in 1983 
and continue my graduate studies at Columbia. Although I was 
very disappointed when Exxon discontinued the study, I am still 
grateful for the opportunity I was afforded.
    In summary, the importance of my testimony is to note that 
Exxon knew of the anthropogenic climate change issue in the 
1970's and considered it a sufficiently important problem to 
the company, and perhaps to society, that it undertook a major 
research effort.
    While the research at Exxon did not continue long enough to 
fully interpret the results, the data we collected eventually 
became part of the scientific work published by Columbia 
scientists. Although the corporation chose to discontinue this 
research, it continued to fund climate modeling research for at 
least several years after it terminated the tanker project.
    For the work that I was involved in, Exxon efforts were 
intended to reduce the uncertainties associated with climate 
change forecasts and CO2 cycling. In both instances, the 
corporation was aware of the potential problem caused by rising 
CO2 levels.
    Mr. Raskin. Thank you very much for your testimony.
    Dr. Oreskes.

  STATEMENT OF NAOMI ORESKES, PROFESSOR, HISTORY OF SCIENCE, 
  AFFILIATED PROFESSOR, EARTH AND PLANETARY SCIENCES, HARVARD 
                           UNIVERSITY

    Ms. Oreskes. Thank you very much for the opportunity to 
speak with you today. My testimony is based on 15 years of 
research on the history of climate science and on the history 
of attempts by the fossil fuel industry and its allies to 
mislead the American people about that science.
    Scientists have known since the late 19th century that 
carbon dioxide from burning fossil fuels had the potential to 
change the Earth's climate. By mid-20th century, the issue was 
being widely discussed. In 1961, for example, Alvin Weinberg, 
the director of the Oak Ridge National Laboratory, called 
carbon dioxide one of the ``big problems'' of the world, by 
which he meant a problem, quote, ``on whose solution the entire 
future of the human race depends.''
    By the late 1960's political leaders were discussing the 
issue, too. One example was Henry Jackson, the Democratic 
Senator from the state of Washington. In 1969, Jackson wrote to 
Lee DuBridge, the science adviser to President Richard Nixon, 
reacting to a letter from a constituent who had heard about the 
greenhouse effect on television.
    Jackson asked DuBridge whether pollution from automobiles 
could contribute to the greenhouse effect. DuBridge replied: It 
is known that high concentrations of CO2 in the atmosphere will 
warm the climate. There is little doubt that the automobile 
contributes a very significant fraction of this carbon dioxide.
    Between 1966 and 1970, when Congress held numerous hearings 
on air pollution, many leading scientists testified about 
carbon dioxide and climate. Their testimony, along with 
legislators' detailed and sometimes lengthy discussions of the 
issue, helps to explain why the 1970 Clean Air Act explicitly 
states that, quote, ``All language referring to the effects on 
welfare includes . . . effects on soils, water, crops, 
vegetation, weather . . . and climate.''
    Fast forward to 1992 when world leaders met in Brazil to 
adopt the U.N. Framework Convention on Climate Change, which 
committed its nearly 200 signatories to prevent, quote, 
``dangerous anthropogenic interference with the climate 
system.'' In signing that convention, President George H.W. 
Bush promised, quote, ``concrete action to protect the 
planet.''
    But that did not happen. And since 1992, climate change has 
gone from being a prediction to being a fact. We now have clear 
and convincing evidence not only that manmade climate change is 
underway, but that it is driving sea level rise, making floods, 
fires, heat waves, and hurricanes worse, threatening water 
supplies, and adversely affecting human health.
    So why did we fail to prevent dangerous climate change? The 
answer is not for lack of information or awareness. I submit 
that a large part of the answer is the systematic, organized 
campaign by the fossil fuel industry and its allies to sow 
doubt about the science and prevent meaningful action.
    We have heard how ExxonMobil not only knew about the 
findings of climate science, but until the 1980's contributed 
to that science. However, sometime in the late 1980's or early 
1990's, ExxonMobil changed course. Rather than accept the 
science and alter its business model appropriately, it made the 
fateful decision to fight the facts.
    For more than 30 years, the fossil fuel industry has 
deliberately and systematically misled the American people. The 
details of these efforts are presented in my recent coauthored 
report, ``How Americans Were Deliberately Misled About Climate 
Change,'' submitted as appendix 4.
    In that report we argue that the fossil fuel industry did 
not just pollute the air, they also polluted the information 
landscape. They did this through false advertising that 
misrepresented climate science, by collaborating with trade 
organizations and think tanks to reinforce their misleading 
messaging, and by attacks, personal attacks, on climate 
scientists.
    Internal industry documents made clear that these 
activities were intended to undermine public support for action 
on climate change.
    In this sense, disinformation campaigns were adjuncts to 
the extensive congressional lobbying aimed at blocking 
lawmakers from passing legislation that might meaningfully 
address the issue. Between 2000 and 2016, the fossil fuel 
industry spent more than $2 billion on congressional lobbying, 
outspending environmental organizations and the renewable 
energy sector by a ratio of approximately 10 to one.
    In our 2010 book, ``Merchants of Doubt,'' Erik Conway and I 
showed that the strategies and tactics used by the fossil fuel 
industry to disparage climate science, to sow doubt in the 
minds of the American people, and to block action were the same 
as those used by the tobacco industry.
    We further show that this was no coincidence, because many 
of the same individuals, PR firms, advertising agencies, and 
think tanks were involved in both.
    Democracy depends on citizens having access to accurate 
information on which to make informed decisions. As a result of 
fossil fuel disinformation, the American people have been 
denied accurate information about a matter that affects our 
lives, our liberty, and our property. And while the industry 
has reaped literally billions in profits, hundreds of billions 
in profits, we, the American people, are now footing the bill 
for the damage.
    Thank you very much.
    Mr. Raskin. Thank you, Dr. Oreskes.
    Ms. Eubanks, you're on for five minutes.

 STATEMENT OF SHARON EUBANKS, OF COUNSEL, HENDERSON LAW FIRM, 
                              PLLC

    Ms. Eubanks. Thank you very much for the opportunity to 
appear before this subcommittee today. I'm going to take this 
time to amplify some of the more salient points of my written 
testimony.
    Here in the United States we face a climate emergency. 
Climate change poses a fundamental threat to human health, 
ecosystems, and property. We see its effects in coastal 
flooding, increased severity of storms, changes in 
precipitation patterns, and sea level rise.
    Climate change, global warming, call it whichever, is 
caused by the emission and accumulation of greenhouse gases in 
the atmosphere, primarily due to the combustion of fossil 
fuels--oil, gas, and coal.
    So what did the companies know about global warming, the 
fuel companies? When did they know what they knew? What did 
they do about it? What legal difference does any of that make? 
And can they be held liable for their conduct?
    In 1958 the industry as a whole was studying carbon dioxide 
in the atmosphere through its industry organization, the 
American Petroleum Institute. From 1968 onward, the industry 
was repeatedly warned of the climate risks of its products, 
including warnings by their own scientists. Indeed, throughout 
the 1970's and 1980's, Exxon and other companies and industry 
associations, like the American Petroleum Institute, worked at 
the forefront of climate science research.
    They also funded academic scientists, especially those who 
were doing climate modeling. They examined the emerging issue, 
both in terms of the existential threat to their business, they 
looked for potential technological solutions, including 
alternatives to fossil fuels, and evaluated the potential 
impacts on society and ecosystems. The oil company scientists 
reported their findings to supervisors and executives within 
their corporations.
    What did these companies do with the knowledge and 
information that they amassed about the cause and effects of 
global warming? They kept it to themselves. Instead of 
disclosure, the industry leaders funded a campaign of 
disinformation.
    A robust and growing body of documentary evidence 
demonstrates that the major oil and gas companies, whose 
products are substantially responsible for global greenhouse 
emissions and the resulting climate emergency we now face, 
these same companies had early and repeated notice and 
knowledge of the climate risks and they had plenty of time to 
develop ways to avoid or to reduce those risks. Instead, they 
chose to mount a campaign of disinformation and denial.
    We know they did this, and what's more, we know it from 
their own internal documents. In 1998, a memo entitled ``Global 
Climate Science Communications Action Plan'' was leaked to the 
press. Nicknamed the ``Victory'' memo, it outlines a multiyear, 
multimillion-dollar scheme to create uncertainty about well-
established climate science.
    It was an elaborate plan. The idea was to recruit and train 
a team of scientists to debunk global warming on radio talk 
shows, at press briefings, campus workshops, and other types of 
public outreach.
    The plan was developed by a 13-member group of 
communications and PR firms, in addition to the American 
Petroleum Institute, Exxon, Chevron, and Southern Company, 
which is a major utility. The target of that campaign, you 
guys, Congress. Congress is mentioned at least eight times in 
this memo. Also targeted are teachers and industry leaders, in 
an effort to make those embracing the consensus on climate 
change appear to be out of touch with reality.
    The project's first goal, as mentioned in the memo, 
spotlights Congress, hoping to get a, quote, ``majority of the 
American public, including industry leadership, to recognize 
that significant uncertainties exist in climate science, and 
therefore raise questions about those, e.g., Congress, who 
chart the future U.S. course on global climate change.''
    The mechanism for sowing confusion about climate science 
would be a new educational foundation called the Global Climate 
Science Data Center, with an advisory board of respected 
climate scientists, so-called, and a two-year budget of $5 
million. The center would be a one-stop resource for climate 
science for Members of Congress as well as others. Victory 
would be achieved, the memo states, when recognition of 
uncertainties becomes part of the conventional wisdom.
    It appears that some form of the plan was implemented, and 
yet that was only the tip of the iceberg. The denial campaign 
continues today, particularly in the courtroom.
    In my written testimony, I highlight the similarities 
between the actions of big tobacco and what we know about the 
actions of the fossil fuel industry, similar tactics and lies.
    I think of how Henry Waxman showed America the true face of 
the tobacco industry, exposing decades of deceit. He conducted 
scores of hearings from numerous committees of all aspects of 
tobacco. That was congressional oversight, and no one ever said 
it was easy.
    But legislation is needed, and legislation and oversight 
are conjoined. Hearings make a public record that are necessary 
and they're proper.
    Because of the time when nothing was being done to address 
global warming, we are now faced with the fact that tomorrow is 
today. We're confronted with the fierce urgency of now. This is 
the time for vigorous and positive action, wholly within your 
jurisdiction.
    Mr. Raskin. Thank you, Ms. Eubanks.
    Dr. Ali, for five minutes you're recognized.

    STATEMENT OF MUSTAFA ALI, VICE PRESIDENT, ENVIRONMENTAL 
    JUSTICE, CLIMATE AND COMMUNITY REVITALIZATION, NATIONAL 
                      WILDLIFE FEDERATION

    Mr. Ali. Yes. I would also like to raise up the name of 
Chairman Cummings, who when I was a Brookings Fellow here on 
Capitol Hill, was a mentor to many of us, especially young men 
and young women of color.
    Chairman Raskin, Ranking Member Roy, and members of the 
committee, on behalf of the National Wildlife Federation, our 
52 state and territorial affiliates, more than 6 million 
members, and environmental justice communities across our 
country, thank you for the honor of testifying before you 
today.
    Today's hearing comes at a crucial time as our most 
vulnerable communities are in the crosshairs of both public 
health impacts from the burning of fossil fuels and the impacts 
of climate change.
    My grandmother had a saying: When you know better, do 
better. Exxon and other fossil fuel companies have known the 
impacts of their industry on our planet and the health of our 
most vulnerable communities for decades.
    For over 40 years, the environmental justice movement has 
been placing a spotlight on the disproportionate health impacts 
that have been happening in communities of color, lower-income 
communities, and on indigenous lands. They have been 
collecting, researching, and analyzing their own data through 
citizen science, and working with colleges, universities, and 
scientific organizations to highlight those public health 
challenges and climate impacts they face on a daily basis.
    Health impacts of burning fossil fuels include increased 
respiratory issues, exacerbated allergy symptoms, asthma, 
cardiovascular disease, and premature death. In the United 
States, more than 26 million people have asthma.
    Communities have also had to battle the misinformation 
campaigns over the years, a handful of fossil fuel companies 
that provided funding to scientists to produce biased data. 
This analysis is used to deny or understate the negative 
impacts of the fossil fuel industry, discredit the practicality 
and the value of clean and renewable energy systems, or refute 
the very existence of climate change and the role of human 
activity on its proliferation.
    Environmental justice communities have often had to deal 
with the double whammy of fossil fuel pollution that comes from 
facilities like those owned and operated by Exxon and others. 
They have to deal with the immediate impacts of exposures to 
the burning of fossil fuels and to the warming of the oceans 
and our planet, which contributes to the increases in 
hurricanes, floods, droughts, and wildfires, just to name a 
few.
    Fossil fuel facilities are disproportionately--let me say 
that again--disproportionately located in communities of color. 
From southwest Detroit to Baytown, Texas, to Cancer Alley in 
Louisiana, communities of color are in the crosshairs of this 
pollution and have been told not to worry. More than 100,000 
people are dying prematurely from air pollution in our country. 
That's more than dying from gun violence.
    More than one million African Americans live within a half 
mile of oil and natural gas wells, processing, transmission, 
and storage facilities, not just including oil refineries; 6.7 
million live in counties with refineries, potentially exposing 
them to an elevated risk of cancer due to toxic air emissions. 
In Tennessee alone, 54 percent of residents living in counties 
with oil refineries were African American. For reference, 
African Americans make up around 13 percent of the U.S. 
population.
    Emissions from oil and gas have been linked to over 138,000 
asthma attacks and over 100,000 missed school days each year. 
Approximately 13.4 percent of African American children 
nationwide have asthma, compared to 7.3 percent of White 
children. African Americans are exposed to 38 percent more 
polluted air than Caucasian Americans and they are 75 percent 
more likely to live in fence-line communities than the average 
American. Yes, your ZIP Code does determine your health, and 
what's next to you plays a big role in how long you might live.
    Climate change presents the second whammy. It is a global 
and domestic problem, and our most vulnerable communities are 
often hit first and worst. Disruptions of physical, biological, 
ecological systems can lead to significant impacts to wealth 
and health. It's really quite simple, communities of color 
carry the burdens for the burning of fossil fuels.
    In 2017, there were 16 natural disasters in the United 
States that exceeded $1 billion in losses. Hurricane Harvey 
dropped 27 trillion gallons of rain over Texas and Louisiana, 
with an estimated cost of $125 billion, making it the second-
most expensive natural disaster. Over 72,000 people needed to 
be rescued, causing 14,000 National Guard members to be 
activated to help.
    Community members in the Manchester neighborhood in 
Houston, Texas, and Port Arthur, Texas, are severely damaged by 
both the water, wind, and the 8.3 million pounds of 
unauthorized air pollution released in their communities, 
putting their health at risk.
    Hurricane trauma creates high levels of anxiety and post-
traumatic stress disorders among those impacted by the storms. 
Natural disasters increase stressors, further threatening the 
mental health conditions already facing overburdened and 
vulnerable communities.
    Flood and extreme rains: Heavy participation events, the 
heaviest one percent of rainfalls now drop 38 percent more in 
the Northeast, 42 percent more in the Midwest, 18 percent----
    Mr. Raskin. Dr. Ali, if you could just wrap up, because 
your time is up, sir.
    Mr. Ali. I can.
    All of that being said, our most vulnerable communities are 
the ones that are being hit first and worst and being 
disproportionately impacted. I look forward to answering your 
questions.
    Mr. Raskin. Thank you very much.
    And then, Ms. Gunasekara, you're recognized for five 
minutes.

   STATEMENT OF MANDY GUNASEKARA, FOUNDER, ENERGY 45, SENIOR 
                 FELLOW, LIFE: POWERED PROJECT

    Ms. Gunasekara. Thank you. Chairman Raskin, Ranking Member 
Roy, and members of the committee, thank you for the 
opportunity to testify today.
    Before I start my testimony, I, like many of my colleagues 
here, want to express my condolences to the family, this 
committee, and the larger community for the passing of 
Congressman Cummings. As a former House staffer, I was inspired 
by his passion on issues he cared the most, and saw true 
statesmanship in his willingness to reach across the aisle and 
engage, not always agree, but respectfully engage with his 
colleagues.
    Climate change is an important issue, and it's one that I 
personally worked on while serving in President Trump's 
administration. I was proud to have helped author the first-
ever constitutionally viable greenhouse gas emission standard 
for our Nation's existing coal-fired power plants, the 
Affordable Clean Energy rule, which replaced the famously 
stayed Clean Power Plan.
    I was also proud to have drafted the legal and policy case 
for exiting the Paris Climate Agreement, which represents the 
flawed environmental policies of the last administration that 
was quick to sell out American workers to curry favor among 
international elites.
    I was also very proud to be a part of the efforts to 
refocus the agency on its core mission: to protect public 
health and the environment by addressing tangible issues with 
practical solutions.
    Whereas the skewed priorities and mismanagement from the 
last administration left EPA with the Flint, Michigan, crisis, 
the contamination of the Animas River, and an unprecedented 
backlog of submitted state environmental compliance plans, 
today's EPA is much more efficient and much more effective.
    This hearing, like many we've seen under today's extreme 
Democrat leadership, is not premised on facts, it's not in 
pursuit of a better understanding surrounding complex issues of 
national importance, nor is it meant to produce any meaningful 
solutions to any of your environmental challenges.
    It is an attempt to revive a completely debunked effort 
aimed at bankrupting one of our Nation's largest energy 
companies. It is the latest product of a politically motivated 
campaign hatched years ago by politicians, activists, and well-
funded foundations that want to demonize an entire industry and 
paint them as corrupt institutions that have, in their own 
words, pushed humanity toward climate chaos.
    This hyperbolic rhetoric is dishonest, the purported 
policies are ineffective, and it represents all that is wrong 
in the mainstream environmental discussion.
    Our energy industry and the men and women who work in it 
are to be celebrated, not demonized. This country's ability to 
harness our vast energy resources in a responsible and an 
efficient manner has changed millions of lives for the better. 
It is why life expectancy and economic growth, both important 
indicators of human flourishing, have significantly improved.
    Advancements in fossil-based energy and the development of 
modern economies has provided access to live-saving 
technologies, like heat during winter, water treatment, 
medicine, and refrigeration.
    A stark contrast exists today in countries that do not have 
sophisticated energy systems or access to affordable, reliable 
electricity. In parts of the developing world, life expectancy 
today is 10 to 20 years shorter and children under 5 regularly 
succumb to preventable diseases.
    The reality is that we could change these outcomes by 
sharing our successful energy technologies, not by prohibiting 
their use as a result of misaligned environmental policies.
    Our successful energy industry is also why we lead the 
world in environmental progress. Advancements in natural gas 
extraction that led to horizontal drilling have been a key 
driver of our world-leading emissions reductions. As the 
International Energy Agency recently stated, U.S. overall 
reductions represent, quote, ``the largest absolute decline 
among all countries since 2000.''
    We also lead the world in clean air progress. Today we are 
breathing the cleanest air on record, having reduced six 
criteria pollutants, including lead and ozone, by 74 percent 
since 1970. We are also home to the cleanest drinking water in 
the world.
    Additionally, the Trump administration has prioritized $4 
billion of investments in replacing aging infrastructure and 
reinvigorated the Superfund program, which has resulted in the 
largest number of once-contaminated lands being cleaned up and 
reintroduced into productive use.
    Because these regulatory and deregulatory actions carefully 
balance the costs and benefits, EPA is advancing environmental 
protection without forcing the American people to pay excessive 
costs, either directly or indirectly, through inflated energy 
costs.
    This thoughtful approach is especially important for 
vulnerable and socio-economically disadvantaged communities 
that spend a significantly higher portion of their monthly 
income on energy costs. As such, they are significantly 
impacted by high-cost environmental policies, some of which 
have been promoted by members of this committee, like the Green 
New Deal.
    A survey by the National Energy Assistance Directors 
Association found that in the face of increased energy costs, 
low-income and fixed-income Americans will forego trips to the 
doctor, keep their house at unsafe temperatures, reduce 
medication, and skip meals. No American should be forced to 
make these types of unhealthy decisions, and the good news is 
that we don't have to pick.
    President Trump has demonstrated how the best environmental 
actions are focused on balancing the goals of economic growth 
alongside reducing pollution, not pitting these interests 
against each other.
    Thank you again for the opportunity, and I look forward to 
your questions.
    Mr. Raskin. And thank you for your testimony, Ms. 
Gunasekara.
    We are going to now launch into our five-minute-per-member 
questioning period. We're going to roll with the punches a 
little bit because there are so many other hearings that people 
are in and out of, and I'm going to begin by yielding the first 
five-minute block, which I would ordinarily take, to Mr. Gomez 
before he has to go.
    Mr. Gomez. Thank you, Mr. Chairman.
    At the beginning, we heard from my colleague from Texas who 
said, why are we discussing the issue of climate change in the 
Civil Rights Committee and not in the Environmental Committee? 
It's because when we have denied science for so long, it led to 
a lack of progress and sincerity of trying to deal with this 
issue, right, which led to disproportionately impacting people 
of color, minorities, people in urban areas.
    You know, if you really look, where are we going to see 
high rates of asthma? Minority communities. Where are we going 
to see a lack of clean air and clean water? Minority 
communities. Where are we going to see a heat island effect 
where you see rising temperatures scorching cities? In minority 
communities. Where are you going to see people paying a 
disproportionate amount of their income to keep their houses 
cooler? In minority communities.
    Yes, minority communities are disproportionately impacted 
first and foremost, but we will not be the last communities 
that are disproportionately impacted. The people who represent 
rural areas, if you do not think that climate change is coming 
to your district or to your communities, think again.
    Look at Paradise in northern California, devastated by 
wildfires. We have so many wildfires that we can't even keep 
track of them in California anymore. And these fires don't go 
uphill, they go downhill, things that firefighters with years 
and decades of experience have never ever seen before.
    So denying science leads to a denial that we can actually 
tackle this problem. I'm actually proud that this committee, 
for the first time, is bringing up this issue in the context of 
civil rights, because oftentimes communities of color, 
communities that are most impacted are often the ones that are 
left behind.
    I agree, some policies have to do a better job of targeting 
resources. I actually passed a bill when I was in the 
California legislature, 35 percent of all dollars to combat 
climate change go to the areas that are most disproportionately 
impacted by climate change, as well as rural areas. And guess 
what? We had a couple Republicans vote for that bill because 
they know that their people are also impacted.
    So with that, I want to go to my written testimony.
    The oil industry's climate-denial campaign represents, I 
believe, a distortion of democracy. Everyday Americans simply 
don't have the capacity to get their voices heard the way that 
the oil industry does, with high dollar lobbyists, fake reports 
from well-funded think tanks, and scores of television ads.
    So I want to just show one of these examples on how this 
works.
    Do we have the video? Can we play the video?
    [Video shown.]
    Mr. Gomez. Well, Dr. Oreskes, can you explain this a little 
bit?
    Ms. Oreskes. Yes. Thank you very much for the opportunity, 
and in particularly to discuss the issue of the distortion of 
democracy.
    So one of the things we know is that ExxonMobil and other 
members of the fossil fuel industry have spent hundreds of 
millions of dollars on advertising campaigns, false 
advertisements, reports, documents designed to confuse both the 
American people and Congress about this issue.
    This is just one specific example that we documented in our 
work that was produced by the Cato Institute. This clip really 
shows you very clearly how this operates. They produced a 
report that was designed to look exactly like the National 
Climate Impact Assessment, but if you compare the reports, what 
you see is that the Cato Institute, which is not a scientific 
organization, is actually refuting the findings in the National 
Climate Impact Assessment, but they do it in this format that 
is extremely confusing.
    Mr. Gomez. Why would they do that?
    Ms. Oreskes. Well, this is a good question. I mean, you 
would have to ask them. But they are part of----
    Mr. Gomez. Speculate.
    Ms. Oreskes. They are part of a network that they have been 
heavily funded by the fossil fuel industry. They have very 
strong connections to the Koch family and the Koch Industries. 
So it would be plausible to conclude that this was part of a 
strategy to prevent action on climate change.
    Mr. Gomez. So they're not the only think tank that does 
this kind of thing?
    Ms. Oreskes. Not at all. We've counted over 30 think tanks 
that were involved in the networks that we've studied. The 
Royal Society back in 2006 did a study of think tanks that had 
been funded just by ExxonMobil alone, so not including Chevron, 
Peabody coal, and all the rest. Just Exxon alone had funded 39 
different think tanks and organizations that promoted 
misleading and inaccurate information about climate change.
    Mr. Gomez. Thank you.
    I'm out of time, but thank you so much. I now yield back.
    Mr. Raskin. Thank you, Mr. Gomez.
    I now recognize Mr. Roy for his five minutes.
    Mr. Roy. Well, Mr. Chairman, let me first ask for unanimous 
consent for Mr. Comer to participate in today's hearings.
    Mr. Raskin. Without objection.
    Mr. Roy. With that, if Mr. Comer is ready, I will turn it 
over to him.
    Mr. Raskin. Mr. Comer, welcome.
    Mr. Roy. I'm not yielding my time, but for him to use his 
time.
    Mr. Raskin. Fair enough.
    Mr. Comer. Thank you, Mr. Chairman.
    And thank you all for being here today.
    My first questions are going to be for Dr. Garvey and Dr. 
Hoffert.
    You all, at any time while you were working with 
ExxonMobil's Research, was their research out of step with the 
academic research community at that time?
    Mr. Garvey. No, it was not.
    Mr. Hoffert. No, it was not. It was not. It was basically 
reinforcing academic research all over the world as reflected 
in the Intergovernmental Panel on Climate Change, which 
summarizes all the peer-reviewed research on climate change all 
over the world.
    Mr. Comer. Was any of your all's work ever published in 
scientific journals?
    Mr. Garvey. There was one article published from the tanker 
project directly, and then some of the data was published in 
other articles by Columbia University.
    Mr. Hoffert. Yes. Our work was profusely published, and 
it's not easy to do. You have to get two peer reviewers. And 
these were quality journals.
    All in all, and there are eight papers on Exxon's own list 
of 100 papers that they wrote or they contributed to, in 
climate change that were produced by our group. And as I said 
in my introductory statement, from 1981 to 1987, when I was a 
paid consultant, and I continued to cooperate after I was a 
paid consultant with my Exxon colleagues, we published five 
more papers in peer-reviewed journals.
    Mr. Comer. Mr. Chairman, the New York attorney general and 
many others leading climate change litigation efforts across 
the country would have us believe that the oil and gas industry 
hid key science for decades from the American public. 
Publishing work that is consistent with academic research in 
scientific journals seems like an odd way to go about hiding 
anything, and I just wanted to make that point.
    Now, Ms. Gunasekara, my question for you. Environmental 
activists have acknowledged that one of their goals is to 
encourage strategic litigation that would bring internal 
company documents into the public domain. These documents would 
then be used to develop negative narratives about the oil and 
gas companies.
    Do you believe these lawsuits are really in the best public 
interest?
    Ms. Gunasekara. No, I don't. I don't believe they're good 
for the American people.
    And when it comes to what they purport to do, which is 
improve the environment, it has no relative impact, whether 
you're talking about these frivolous lawsuits protesting the 
Keystone XL pipeline or encouraging divestment. That has no 
real impact on the environment and it does nothing to advance 
the interests of the American people.
    Mr. Comer. Well, then, how does taking money from companies 
that are driving innovation and giving it to trial lawyers help 
the American people?
    Ms. Gunasekara. I don't think it helps them at all. I think 
that drivers of innovation are where the solutions to any 
current and future challenges will come, and it's in the best 
interests of policymakers and the American people to seek out 
and support these institutions, not to demonize them in the 
ways that we've seen from this relative campaign.
    Mr. Comer. Right. I know that you were involved in the 
President's decision to withdraw from the Paris climate 
agreement. Can you talk about the reasoning behind his decision 
to do that?
    Ms. Gunasekara. Yes, absolutely. It came down to a number 
of factors, but most notably the fact that it was going to ship 
American jobs overseas to countries like China and India that 
don't use basic pollution control technology our industrial 
operators have been using for decades.
    So you were going to take economic opportunity and jobs, 
ship them overseas, and then exacerbate air quality issues, 
some of which are finding their way over here to this country, 
and undermine efforts to reduce greenhouse gases.
    Mr. Comer. I think that my questions make a solid point 
that at the time the industry was doing exactly what we as 
Americans wanted and there was no scientific data to diminish 
the job that the oil and gas industry was doing with what 
Chairman Roy said in providing our standard of living, fueling 
our tremendous economy, doing things that help Americans live 
longer than people from other countries.
    So this is something that we've talked about in the 
Environment Subcommittee many times. We've had this climate 
change topic with at least three committee hearings in the 
Environment Subcommittee.
    So I just wanted to make that statement. Demonizing these 
countries, fueling trial attorneys to have more frivolous 
lawsuits is not going to achieve any objective that we have 
today as we move forward to talk about ways to improve the 
climate.
    So with that, Mr. Chairman, I yield back.
    Mr. Raskin. All right. Well, thank you for joining us 
today.
    And we go now to Ms. Kelly, the pride of Illinois's Second 
District.
    Ms. Kelly. Why, thank you, Mr. Chair.
    We've heard from Dr. Oreskes and Ms. Eubanks about how oil 
companies other than Exxon engaged in climate denial. So I want 
to turn to some other examples of oil industry deception.
    In 1997 a Mobil Oil ad claimed that scientists cannot 
predict with certainty if temperatures will increase.
    Dr. Hoffert or Dr. Garvey, by 1997 would it be fair to say 
that the scientific community had reached its consensus that 
global warning was really a threat?
    Mr. Hoffert. I think we would probably both agree that that 
consensus was forming and had almost been totally clinched.
    Scientists are actually very self-critical. That awareness 
may not be widespread. But when you publish a result in a 
scientific journal, the whole point is to be mercilessly 
critical of the result because we want to have faith that what 
we're publishing is accurate, it's going to be the basis of 
other people's research.
    And over time, and you can track this through the 
Intergovernmental Panel on Climate Change reports, many of 
which were attacked by climate change deniers, there has been 
an increasing certainty that humans are responsible for major 
climate change. As a matter of fact, geological scientists call 
the present era the Anthropocene, meaning that it is humanly 
created, the basic changes in the geophysics of the planet.
    Ms. Kelly. Thank you.
    Dr. Garvey, any comment?
    Mr. Garvey. No, I agree with Dr. Hoffert.
    Ms. Kelly. Okay.
    Ms. Oreskes. Could I just quickly join in on this?
    But this ad is deeply misleading because in 1995 the IPCC 
had reported in its second assessment report that the balance 
of evidence suggested a discernible human impact on climate. So 
there was a consensus among scientists that climate change was 
underway.
    But this is a classic example of the denialist's tactics by 
throwing in certain adjectives, for example, where changes will 
occur. That's technically true. It was not possible then and 
even now very difficult to say exactly where particular changes 
will occur. So by throwing in these little key adjectives, they 
present a claim that is deeply misleading and yet difficult to 
refute.
    Ms. Kelly. Okay. Thank you.
    Would it be fair to say that this statement was likely, as 
I think you're trying to say, crafted to deceive the American 
public about climate change?
    Ms. Oreskes. Yes, I think it would be extremely fair to say 
that.
    Ms. Kelly. Okay.
    In 1996, just one year before this ad, Mobil Oil engineers 
building facilities along the coast of Nova Scotia factored 
climate change, including rising temperatures and sea levels, 
into their structural plan. This included raising the height of 
their oil rigs an additional two meters above sea level.
    Other oil companies took similar precautions to protect 
their investments while publicly dismissing the risk of climate 
change. In 1989, Shell Oil engineers redesigned a natural gas 
pipeline in the North Sea to account for rising sea levels as a 
result of global warming.
    Dr. Oreskes, would you agree that oil companies took steps 
to fortify themselves against the effects of climate change 
while simultaneously depriving the American public of the 
necessary information to prevent climate change?
    Ms. Oreskes. Yes, absolutely.
    Ms. Kelly. This stark contrast between public statements 
and private action is not just a thing of the past. In recent 
years, oil companies have begun to publicly acknowledge the 
existence of climate change.
    For example, Shell has added a page to their website urging 
action to fight climate change, as you can see. On this page 
Shell says, and I quote, ``The climate is changing and human 
activities appear to be to blame, yet people still question the 
science evidence. Why do you think that is? Can there be any 
doubt?''
    Again, what is behind this supposed change in tune and what 
are your thoughts on Shell's assertion that people question the 
scientific evidence?
    Ms. Oreskes. Well, I mean, it's hard not to want to laugh 
at that. I mean, why do we think that that is? Because of the 
30-year campaign that Shell participated in to say--to create 
doubt and to question the scientific evidence? So again, this 
seems to be part of a strategy and tactic to deny their own 
role in this confusion.
    Ms. Kelly. Thank you.
    Dr. Ali, you have spoken at length about the unequal burden 
of climate change and the effects we have seen in communities 
of color. In that context, what does it say about the company's 
continued oil exploration, say about how they value the lives 
of people of color?
    Mr. Ali. It says that they don't value the lives of people 
of color or they value them less.
    Ms. Kelly. Thank you for that statement.
    I'm running out of time, so I have to yield back on that.
    Mr. Raskin. Thank you very much.
    I would go to Mrs. Miller. You're recognized for five 
minutes.
    Mrs. Miller. Thank you, Chairman Raskin and Ranking Member 
Roy, and thank you all for being here today.
    I am proud that my home state of West Virginia fuels the 
Nation and the world. Natural gas from my state provides a 
cost-efficient and reliable base load to keep the lights on in 
our homes, schools, and businesses. West Virginia natural gas 
also helps fill in during the times when renewables cannot keep 
the lights on.
    The United States consumes about 12,000 kilowatts per hour 
per capita. Germany and France come in at about 7,000 kilowatts 
per hour per capita. Right now, because of American coal, oil, 
and natural gas, we have made great strides in ensuring energy 
costs remain low and quality of life remains high.
    Between 2005 and 2017, the United States reduced emissions 
by nearly 1 billion tons, and we are expected to continue to 
reduce emissions in 2019 and 2020. We did this by still 
utilizing coal, natural gas, and fossil fuels.
    Global energy demand is going to continue to grow and 
demand for hydrocarbon-based fuels will be crucial to meet this 
demand quickly and cost efficiently. Further, it is crucial 
that we keep energy production in the United States. We 
produce, manufacturer, and export with fewer emissions, employ 
millions of Americans, and are able to invest in technology, 
like carbon capture, to export around the world.
    Dr. Oreskes, thank you for testifying today. Do you 
acknowledge that there is a flaw in your study where two-thirds 
of the advertorials cited are from two different companies?
    Ms. Oreskes. Not at all. I do not agree with that 
statement. ExxonMobil is one company. When Exxon and Mobil 
merged they became one company and the merged company took on 
both the assets and the liabilities of both individual 
companies.
    Furthermore, in our followup work to the study that you're 
referring to, Geoffrey Supran, who's here with me today, and I 
have shown that Mobil took out misleading advertisements prior 
to the merger, but so did Exxon.
    We also know, we also have evidence that scientists at 
Mobil, just like scientists at Exxon, were communicating with 
academic researchers, were informing their company of the 
results of those research----
    Mrs. Miller. What year did they merge?
    Ms. Oreskes. I'm sorry. I don't remember.
    Geoffrey, do you remember the year of the merge?
    I'm sorry, I don't remember, but I can get you that 
information.
    Mrs. Miller. Thank you. Thank you.
    Ms. Oreskes. But we can demonstrate that both companies, 
both before, and ExxonMobil continued misleading advertisements 
after the merger.
    Mrs. Miller. I'd like you to prove that.
    Moving on, Ms. Gunasekara, can you elaborate how the United 
States has been a leader in reducing emissions?
    Ms. Gunasekara. Yes, absolutely.
    According to the Energy Information Administration here in 
the United States, we have reduced our energy-related CO2 
emissions by about 14 percent from 2005. Compare that to the 
rest of the world that has increased their emissions by 20 
percent.
    A large driver of this, as I mentioned in my testimony, is 
the fact that we have inspired and supported innovations in the 
energy industry, fossil-based energy industry, that will 
continue to be an important source of reliable and affordable 
electricity.
    And because we have spurred continued investment in these 
types of innovations from extraction to refinement, use, and 
then transmission, we have the cleanest, most efficiently 
produced energy in the world.
    Which is why we spent significantly less, from the Federal 
Government perspective, having these types of outcomes, whereas 
you look at some places, like Germany and France, that have 
embraced these top-down, overarching, expensive approaches, 
they spent billions of dollars but don't have equivalent 
emission reduction to actually show for it.
    Mrs. Miller. Thank you.
    How would moving to a full renewable scheme come at the 
detriment to the American jobs, the economy, and the 
environment?
    Ms. Gunasekara. It would be hugely devastating because it 
would make the price of energy immediately go up. Wind and 
solar have a role in a diverse energy mix, but not a base load 
role. And when it comes to ensuring access to affordable and 
reliable energy, you have to have a base load power source that 
today is provided by primarily natural gas and coal, as well as 
nuclear energy.
    So a shift to wind and solar, which is primarily what folks 
are talking about in this context, we'd have to get used to 
rolling blackouts, because when the wind doesn't blow and the 
sun doesn't shine those energy sources don't provide the energy 
needed to fuel commerce and to get people to where they need to 
go.
    So it would not only be hugely detrimental to the day-to-
day life standard of living for everyone, but it would undercut 
our ability to compete in an increasing global atmosphere where 
jobs and economic productivity would no doubt be shipped to 
overseas countries that don't ascribe to environmental 
protections that are remotely similar to what we do here in 
this country.
    Mrs. Miller. So it would be detrimental to everyone?
    Ms. Gunasekara. Yes.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. Raskin. Thank you very much, Mrs. Miller.
    I recognize now the gentlelady from the Commonwealth of 
Massachusetts, Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman.
    There's an old adage in my home community that says: When 
everyone else catches a cold, Black folks catch pneumonia.
    The point is, everyone is sick. The issue is just at 
varying degrees of disease, of illness. And that is certainly 
true when it comes to the climate crisis. It is felt by all of 
us, but the greatest burdens are borne by the most vulnerable 
people of color, low-income communities, immigrants, and non-
native English speakers, all communities most at risk of poor 
health outcomes and least able to relocate or to rebuild after 
a disaster.
    And my district, the Massachusetts Seventh, one of the most 
vibrant, diverse, and unequal districts in the country, is 
certainly not immune. From Chelsea to East Boston many of my 
residents are vulnerable to rising sea levels, extreme heat, 
and poor air quality. In the Chinatown neighborhood in Boston, 
a predominantly immigrant and low-income community that falls 
at the crossroads of two major highways, my constituents 
breathe some of the most toxic air in all of Boston. Over the 
last several years, asthma rates at the Josiah Quincy 
Elementary School, which is in the heart of the Chinatown, have 
jumped from 18 to 25 percent.
    Adding insult to injury, these issues aren't a coincidence. 
They are outcomes borne out of decades of racial, economic, and 
social injustice, manmade policies that have been worsened by 
the greed and deceit of the oil and fossil fuel industry.
    Now, burning fossil fuels are one of the greatest drivers 
of the climate crisis, and the oil industry has worsened the 
problem by delaying action through its denial campaign and 
engaging in insidious campaigns to directly embed themselves in 
communities most vulnerable.
    Dr. Ali, why do oil companies locate their facilities in 
these communities and how do cities depend on them?
    Mr. Ali. In many instances they feel that these are the 
areas of least resistance. When these companies move in 
property values go down for the folks who are on the fence 
lines, healthcare costs go up because they are being impacted. 
And, as you said, there is a systemic racism aspect to this, 
and that's one of the reasons that there's a conversation about 
civil rights.
    So we have to be focused, because what we find is that 
communities are being not only impacted, but broken apart. 
Communities like Princeville, North Carolina, which was founded 
by freed slaves and hit by 100-year and 500-year floods. You 
have places like in Louisiana where indigenous folks have had 
to move down, at the Isle de Jean Charles, had to move away 
from their traditional lands.
    We can literally go down the list. You can look in 
southwest Detroit in the 42817 where folks are literally right 
next to a refinery and they literally can't breathe.
    I wish that the Members would actually go to these 
communities and spend real time. When you go to the Manchester 
community in Houston, Texas, primarily a Latino, hardworking 
community, when you roll the windows down in your car you feel 
like you're breathing in gasoline fumes, and that is from the 
refineries.
    Ms. Pressley. Thank you, Dr. Ali.
    And speaking of Texas and Houston, specifically, a major 
hub for the oil and gas industry and is known as the world 
capital of energy, Houston was also hit very hard by Hurricane 
Harvey, a storm which reached unprecedented levels of intensity 
because of climate change. Harvey dumped so much rain on 
Houston that the National Weather Service had to add new colors 
to its rainfall chart in order to effectively map it.
    We know evacuation can be expensive. Dr. Ali, yes or no, 
when massive storms occur like Hurricanes Harvey or Maria, is 
everyone able to evacuate?
    Mr. Ali. No.
    Ms. Pressley. And who is usually left behind?
    Mr. Ali. People of color, low-income communities, and 
sometimes indigenous populations.
    Ms. Pressley. Eleven different oil refineries, including 
Exxon's Baytown, were forced to shut down their operations and 
flare off excess chemicals. Now, oil refineries are designed to 
run 24/7, so when they shut down it causes massive spikes in 
pollution. According to a 2017 news report, Baytown, quote, 
``released about double the amount of volatile organic 
compound, a broad category of air toxics, than its permit 
normally allows,'' unquote.
    Dr. Ali, how does this excess pollution affect the people 
who aren't able to evacuate the area?
    Mr. Ali. They're trapped. They're trapped, and they are 
exposed to these chemicals, and they have breathing 
difficulties. You find these asthma bursts that happen. You 
find people developing liver and kidney disease because of 
these additional emissions that are going on.
    Ms. Pressley.
    [Presiding.] Thank you.
    It's clear we must act today. We must act in this moment. I 
second the impassioned comments of my colleague, Representative 
Gomez, and also express my pride in that this topic is before 
the Civil Rights and Civil Liberties Committee today, 
appropriately so.
    I now recognize Mr. Massie for five minutes of questions.
    Mr. Massie. Thank you very much.
    Dr. Hoffert, do you support a CO2 tax?
    Mr. Hoffert. You're asking me directly. Yes, I do but--
sorry. I always forget this.
    Mr. Massie. Did you say yes, you support a CO2 tax?
    Mr. Hoffert. Yes, but it's not--I don't think the question 
is properly formatted.
    Mr. Massie. Okay. Well, I get to ask it. I'll ask you 
another followup.
    Mr. Hoffert. I understand. A carbon tax. Depends on the 
details.
    Mr. Massie. Reclaiming my time.
    Mr. Hoffert. Yes.
    Mr. Massie. Reclaiming my time.
    Dr. Garvey, do you support a CO2 tax?
    Mr. Garvey. I support that the Congress needs to deal with 
the problem and decide how best to manage CO2.
    Mr. Massie. Do you think it's a good tool to do it?
    Mr. Garvey. I'm not a legislature.
    Mr. Massie. So you're not qualified to comment on that.
    Mr. Garvey. That's correct.
    Mr. Massie. Okay. Thank you very much.
    Dr. Oreskes, do you support a CO2 tax?
    Ms. Oreskes. Well, let me say that I'm not an expert on 
taxation policies, but leading economists around the globe, 
including my good colleague Nicholas Stern, with whom I have an 
op-ed piece in today's New York Times, who wrote the Stern 
report, former economist at the World Bank, he and virtually 
all of his colleagues do think that carbon pricing is an 
effective way to address the issue without damaging the 
economy.
    Mr. Massie. Okay.
    Ms. Eubanks, do you support a CO2 tax?
    Ms. Eubanks. Not necessarily.
    Mr. Massie. Okay.
    Dr. Ali, do you support a CO2 tax?
    Mr. Ali. Not if it creates hot spots and hot zones.
    Mr. Massie. So there are only two people here that support 
a CO2 tax.
    Dr. Hoffert, what should the tax be per ton?
    Mr. Hoffert. I prefer something called a fee-and-dividend 
tax, you're probably familiar with it, because it uses market 
mechanisms, and essentially all of the money collected, except 
for administrative fees, would be returned to taxpayers. I 
think that given the polarization in the United States----
    Mr. Massie. Can you tell me what the fee would be?
    Mr. Hoffert [continuing]. that would be the most viable way 
to----
    Mr. Massie. Can you tell me what the fee would be?
    Mr. Hoffert. I can't, because I haven't prepared the 
specific numbers on that.
    Mr. Massie. Okay.
    Dr. Oreskes, what would your fee be?
    Ms. Oreskes. Well, it wouldn't be my fee. I think that's a 
very unfair way of posing the question. I think this whole line 
of questioning is a bit weird for this committee. But since you 
asked----
    Mr. Massie. It's not weird because the presumption--let me 
get to my point here, which you all are doing a great job of 
making.
    The presumption of this hearing being held in the Civil 
Rights and Civil Liberties Committee is that somehow raising 
the price of energy would help the economically challenged in 
our society.
    Ms. Oreskes. Okay.
    Mr. Massie. Ms. Gunasekara, can you talk about the impact 
of the price of energy on----
    Ms. Oreskes. Well, could I answer that?
    Mr. Massie. No, I'm asking--you had a chance.
    Ms. Gunasekara, could you talk about the impact of the 
rising price of energy if there were a CO2 tax on vulnerable 
populations?
    Ms. Gunasekara. Yes. And let me say for the record, I do 
not support a tax on CO2, primarily because it would increase 
the price of energy and electricity. We know the impacts 
because you've seen this happen in Germany where energy and 
electricity is now a luxury commodity.
    So a significant number of studies were done during the 
last administration assessing the impact of cost increases 
affiliated with their Clean Power Plan.
    One of the studies that stood out to me was from the Black 
Chamber of Commerce that found that it would result in hundreds 
of thousands of less jobs in the Hispanic and Black 
communities, as well as communities where people are living on 
fixed-income or low-income budgets.
    It would force them to make decisions where they forego 
meals, they keep their house at unsafe temperatures, they stop 
going to the doctor, and they don't seek out preventive 
healthcare because of the costs that they're trying to save in 
order to afford expensive electricity.
    Mr. Massie. Thank you very much.
    Dr. Ali, you stated that most of the refineries are located 
in minority communities. Is that true?
    Mr. Ali. I said disproportionately located.
    Mr. Massie. Disproportionately located. Can you give us an 
example of one that's not?
    Mr. Ali. That's not located in a community of color?
    Mr. Massie. Yes.
    Mr. Ali. No, I can't, not at this----
    Mr. Massie. Let me give you an example. There's one in my 
district, and it provides jobs. It's actually one of the best 
things that's ever happened to our district because we have a 
problem with brain drain in eastern Kentucky. People grow up, 
they want to get an education and get a career in STEM. And the 
one opportunity we have is at that refinery.
    I worked there three summers while I was a college student. 
The only opportunity that I had to get a job in science, 
technology, engineering, and math, was at that refinery.
    If you could wave a wand and make those refineries go away 
from the communities of color, would you do that?
    Mr. Ali. I always honor the work that has happened in the 
past when we didn't have other opportunities for different 
types of energy sources. I would.
    Mr. Massie. Would your community be better--would those 
communities be better off or worse off without those jobs in 
those refineries?
    Mr. Ali. That's why we talk about a just transition. That's 
why we talk about getting advanced manufacturing opportunities. 
That's why we talk about solar, wind, thermal.
    Mr. Massie. Would you answer my question? Are you better 
off or worse off with that refinery in those communities?
    Mr. Ali. You're worse off because of the health impacts, 
and you can get other types of industries in those areas.
    Mr. Massie. Well, if they leave those communities, please 
send another one to my congressional district, because it has 
been a godsend to our congressional district, particularly for 
the people who need jobs.
    Mr. Raskin.
    [Presiding.] The gentleman's time is expired.
    You can answer the question if you'd like to do.
    Mr. Ali. We have a huge amount of opportunity if we make 
the proper investments in wind, solar, thermal, tidal, and wave 
energy, and some of the new developing opportunities that exist 
in that space.
    I come from Appalachia. I understand and I honor the 
culture of coal in the past. But I also see that other 
countries will take advantage of these new opportunities in 
this new clean economy if we don't make those investments.
    These are jobs that can stay here at home. We can train our 
workers. We can make sure that folks who never had an 
opportunity to have businesses can start their own businesses. 
And I hope that we can make sure that in Kentucky and West 
Virginia and Ohio and all across our country we create these 
new opportunities for folks.
    Mr. Raskin. Thank you very much.
    Okay. I'm going to recognize myself now for five minutes.
    I want to start with this. Dr. Oreskes, I noticed a kind of 
progression in the arguments denying the science.
    Some used to be just a flat-out categorical denial that 
climate change is taking place.
    Then I started to notice that some of the skeptics were 
accepting the science, but they were denying that there was a 
role that humanity had played. They said: Well, there's sort of 
a natural ebb and flow in the climate.
    Then I noticed some of them were accepting that there was 
an anthropocentric role in climate change, but they were 
arguing that it's actually good for us, that the heating of the 
climate will actually have some positive effects.
    Others of them say: Well, it's bad for us, but it's too 
late at this point to do anything, so we may as well enjoy it.
    I wonder, has anybody tried to actually compile a 
comprehensive study of the different--the changes in the 
evolution of climate denialism?
    Ms. Oreskes. Yes, thank you for that question. In our own 
work, we've documented this. So have a number of other 
scholars. And I think we have actually just witnessed this in 
this very last few minutes.
    One of the denying and disinforming talking points now is 
this claim that carbon pricing will increase the price of 
energy. That is false, and it's false on two levels. It's false 
because it won't increase the price of energy, it will increase 
the price of carbon-based energy.
    And that's the whole point. The point is to level the 
playing field because carbon-based fuels have received gigantic 
subsidies, both in the United States and around the globe, and 
to allow renewables to compete on a level playing field.
    In addition, and this is very important, so please bear 
with me. We used a pricing system to deal with acid rain, and 
that was brought in by a Republican President, President George 
H.W. Bush, who, under the Clean Air Act amendments which he 
signed, introduced a pricing system for the pollution that 
caused acid rain. It was an emissions trading system.
    Everyone who opposed it said it was going to increase the 
price of electricity, and all the same arguments that we've 
just heard today were used. And guess what? The price of 
electricity in the Midwest fell and we cleaned up acid rain.
    Mr. Raskin. I'm curious about what happens to climate 
scientists. You mentioned someone named Benjamin Santer. Can 
you tell us what happened to him?
    Ms. Oreskes. Yes. Well, one of the things we've seen over 
the last 30 years are personal attacks on climate scientists 
designed to undermine their integrity and credibility so that 
the American people will distrust scientists.
    So Ben is the scientist who first proved that climate 
change could not be attributed to changes in solar radiation. 
He was the lead author of a crucial chapter in the second 
assessment report of the IPCC. And he became a target of an 
organized, systematic effort, led by the George C. Marshall 
Institute, one of the think tanks that we've written about, 
accusing him of scientific misconduct, accusing him of fraud. 
Even though every single person who was involved with the 
report denied those claims, all said that he had done nothing 
wrong, this was repeated over and over again.
    And I'd like to point out----
    Mr. Raskin. So he was actually demonized and vilified by 
the oil industry----
    Ms. Oreskes. Correct.
    Mr. Raskin [continuing]. rather than him demonizing them.
    Ms. Oreskes. Exactly. Thank you.
    And if I could just point out, the George C. Marshall 
Institute folded a few years ago. They became the CO2 
Coalition. Energy 45, which Ms. Gunasekara represents, is part 
of that coalition. This is a coalition with a history of 
personal attacks on climate scientists, personal attacks on 
loyal employees of the U.S. National Laboratory system.
    Mr. Raskin. Thank you.
    So the denial campaign goes beyond distortion of the 
climate science. It actually goes into intimidating and 
silencing dissenters.
    Ms. Eubanks, do I understand correctly that after the New 
York attorney general began taking action against Exxon, that 
Exxon sued the attorney general? Is that right, Ms. Eubanks.
    Ms. Eubanks. Yes. Exxon sued the attorney general and it 
also----
    Mr. Raskin. Where?
    Ms. Eubanks. In Texas.
    Mr. Raskin. Why in Texas?
    Ms. Eubanks. Friendly forum.
    Mr. Raskin. Was there any merit to their suit?
    Ms. Eubanks. That was a frivolous lawsuit. The New York 
attorney general lawsuit, that's not a frivolous lawsuit.
    Mr. Raskin. Was it thrown out? Was that lawsuit thrown out?
    Ms. Eubanks. So far it has been. But what was interesting, 
furthermore, is that Exxon subpoenaed all of the attorneys who 
appeared at a meeting in La Jolla back a few years ago for any 
information that they had about a gathering to discuss climate 
change and responses to it.
    Mr. Raskin. So how does this compare to strategies that 
were undertaken by the tobacco companies which retaliated 
against people criticizing them?
    Ms. Eubanks. They're very much the same, you know. Both 
organizations, tobacco, big oil, lied about what they knew and 
when they knew it, and as a result, you know, people died, 
basically.
    Mr. Raskin. Thank you.
    Dr. Hoffert and Dr. Garvey, it seems as if there was a 
moment when Exxon was very invested in trying to figure out 
what the impact would really be of all of the CO2 emissions and 
what might be done. Then it seems as if the strategy changed 
and they decided we're just going to try to suppress the 
findings and confuse the public about it.
    Why do you think that took place? And was there actually a 
moment when they decided to change course, Dr. Garvey?
    Mr. Garvey. Well, I can say that in 1982, when the oil 
market collapsed and there were significant reductions in the 
price of oil, Exxon really retrenched in terms of its research 
expanse, if you will. At that point in time they began to sell 
off major divisions of their research company, things like 
lithium battery research and other divisions of the Exxon 
Research and Engineering Company, as they retrenched and 
focused solely on oil.
    So there was really a sea change that occurred sometime in 
the mid 80's to the early 1990's where they had gone from this 
very broad-based, very future-looking energy company to 
becoming an oil company. That was very evident to me as I 
watched the different divisions become sold off.
    Mr. Raskin. Thank you.
    I'm afraid my time is up. I am going to now recognize Mr. 
Roy for his questioning.
    Mr. Roy. Thank you, Mr. Chairman.
    Dr. Oreskes, a quick question. Would you agree with the 
statement that scientific studies should be conducted in a 
manner that doesn't dictate results and with a methodology that 
avoids bias by researchers as a general matter? Yes? No?
    Ms. Oreskes. Yes.
    Mr. Roy. Is it true that in 2015, 2016, before you 
conducted the report that has been discussed a lot, that you 
tweeted, quote, ``Did Exxon deliberately mislead the public on 
climate change? Hello. Of course they did,'' and that you 
tweeted, ``Exxon's actions may have imperiled all of humanity, 
it's time to divest''? Yes or no, did you tweet those things 
prior to your report?
    Ms. Oreskes. I believe it was after the report, but I could 
check on that.
    Mr. Roy. Okay. Well, I've got data that shows those tweets 
were before your 2017 report.
    Ms. Oreskes. Okay. Could be. Could be.
    Mr. Roy. Is it true that you are at least--you and your 
partner or your coauthor are at least partially funded by the 
Rockefeller Foundation?
    Ms. Oreskes. We received a very small amount of money, 
$5,000, from the Rockefeller Family Fund, yes.
    Mr. Roy. Okay. Thank you. And did you and a number of the 
people that are involved in this discussion about Exxon appear 
at a summit in 2012 discussing these issues long before the 
report was done in, I think, La Jolla?
    Ms. Oreskes. A summit? I'm not----
    Mr. Roy. Yes, La Jolla.
    Ms. Oreskes. We, as Sharon Eubanks, as Ms. Eubanks just 
said, a group of us got together to discuss in La Jolla how we 
could address the disinformation campaigns that we had 
documented in our research.
    Mr. Roy. Okay. Thank you for that answer. So there's a 
coordinated effort, at least on whatever side you want to point 
to----
    Ms. Oreskes. I wouldn't call it coordinated. It was an 
academic discussion.
    Mr. Roy. Okay. Because there's no coordination in academic 
discussions. Let me ask you----
    Ms. Oreskes. No. If you've ever been in academia, you know 
there's no coordination.
    Mr. Roy. In 2018, what was the relative mix of energy 
portfolio in the United States? How much of it was fossil fuels 
and nuclear versus renewable?
    Ms. Oreskes. I believe about 20 percent is renewable 
energy.
    Mr. Roy. Okay. The data I have has 84 percent as fossil 
fuels and nuclear power.
    My point being and my question I'd say to Dr. Ali, you 
mentioned in response to my colleague from Kentucky, you said 
something in the ZIP Code of honoring the culture and talking 
about coal with respect to the past because of your history in 
Appalachia.
    I think my question is then, as we're sitting here, and 
this is a hearing looking backward at what Exxon may have said 
or done, if I heard you correctly, you're saying you think it's 
appropriate to honor the efforts of companies in the past that 
produced the energy that is now resulting in 84 percent of the 
energy that we have in the United States.
    Mr. Ali. I honor the workers. I honor the workers in that 
city.
    Mr. Roy. Okay. And who employs those workers?
    Mr. Ali. Well, of course, they're employed by whomever owns 
those respective companies.
    Mr. Roy. And who owns those corporations?
    Mr. Ali. The owners.
    Mr. Roy. The stockholders.
    Mr. Ali. Well----
    Mr. Roy. And where does that, where do those stocks lie?
    Mr. Ali. In the hands of----
    Mr. Roy. In many people's retirement accounts.
    Here's my point. My point is we have companies that are 
creating energy for the world. Eighty-four percent of the 
energy that the United States of America uses is produced by 
fossil fuels, roughly 63, 64 percent, and 20 percent nuclear.
    Which brings me to another point. Dr. Hoffert, yes or no, 
do you support nuclear power?
    Mr. Hoffert. I do.
    Mr. Roy. Dr. Garvey, do you support nuclear power, yes or 
no?
    Mr. Garvey. I do.
    Mr. Roy. Dr. Oreskes, do you support nuclear power?
    Ms. Oreskes. I do not.
    Mr. Roy. Ms. Eubanks, do you support nuclear power?
    Ms. Eubanks. No.
    Mr. Roy. Dr. Ali, do you support nuclear power?
    Mr. Ali. Not until we learn how to properly be able to deal 
with the waste streams that come.
    Mr. Roy. Ms. Gunasekara, do you support nuclear power?
    Ms. Gunasekara. Yes.
    Mr. Roy. Why? Quickly, you may.
    Ms. Gunasekara. Well, it's the largest source of reliable 
base load energy that is zero emission. It's one of the safest 
forms----
    Mr. Roy. Right.
    Ms. Gunasekara [continuing]. of electricity and will 
continue to be a part of our diverse energy----
    Mr. Roy. I'm always amazed at those who believe that the 
sky is falling within 10 years that will refuse to say that we 
should adopt nuclear power. Because if you want abundant energy 
to power the United States of America, to get these buildings 
lit up, to have electricity flow around the world in order to 
make people, lift them out of poverty, the billion people that 
we blithely ignore while we go around talking about things that 
sound good in Davos and go in the cocktail circuits talking 
about climate change, ignoring the 1 billion people that have 
been lifted out of poverty, we could solve these problems with 
nuclear power.
    Yet the left comes in here and says: We don't want to adopt 
nuclear power in most respects. I'll give some credit to 
Secretary Kerry, who in this very room said, yes, we should 
adopt nuclear power, and to Dr. Hoffert for saying so and Dr. 
Garvey.
    Here's a point that I'd like to make in concluding. My 
grandfather-in-law, my wife's grandfather, Alan Key, moved to 
the panhandle of Texas in the 1930's after growing up in a 
very, very poor household in Arkansas. He lived by himself in a 
cabin, dirt floors, worked himself up working for Phillips 
Petroleum. For 55 years, he worked for Phillips Petroleum 
working in a plant in Phillips just outside of Borger, Texas, 
his whole life. He passed away at 94 years, 94-years-old.
    His work, working for those companies, allowed my wife, her 
brother, to go to Texas A&M University, the children of a 
single mom, because he worked his whole life there helping 
produce the very lifeblood of our economy.
    And forgive me for getting a little aggravated when, yes, 
Texas is being attacked directly. I'll put aside all the 
highfalutin stuff about what energy does for the rest of the 
world. You want to talk about minority impact? Go look at 
Africa and sub-Saharan Africa. How do we get power to Africa?
    Lifting people out of poverty around the world because of 
clean abundant energy that we can make available to the world, 
that's what should be our motives, that's what should be our 
goals. This is what should be motivating us instead of talking 
about what theoretical impacts might be existing here as 
opposed to the direct, calculable impacts on people's lives by 
clean abundant energy available to them every single day.
    Thank you, Mr. Chairman.
    Mr. Raskin. All right. Mr. Roy, I just want to say, at 
least on behalf of myself, I assume I speak for a lot of people 
on the panel, none of you have ever--or at least I've never 
been to Davos, and I'm not on the cocktail circuit. I'm pretty 
much a prohibitionist and pretty abstemious myself. So I'm not 
quite sure who that reference was directed at.
    I will say that the witnesses have been very kind in 
responding to a series of questions they were not invited to 
come here to testify about. What we're looking at is the oil 
industry's awareness and knowledge of the impact of their 
business on climate change, and what they did and what they 
didn't do historically, and how that informs what we're going 
to do going forward.
    So this has nothing to do with nuclear power. I'm sorry 
that some of the witnesses apparently disappointed you in 
taking a position for nuclear power. There was no litmus test 
on nuclear power or any other issue. We have brought in the 
people who we found most expert on the question before us.
    All right. With that, I'm going to call on Ms. Wasserman 
Schultz, who's recognized for her five minutes of questioning.
    Ms. Wasserman Schultz. Thank you so much, Mr. Chairman.
    As my colleagues I know mentioned, ExxonMobil has a long, 
treacherous history of hiding what it knew about climate 
science. But there is no question that multinational mega-
corporation has gotten more slippery with regards to its stance 
and actions on climate change. The company now claims to 
support the Paris agreement even as Trump is trying to pull us 
out of it.
    You'll see on the slide here, in a January 2018 blog post, 
Exxon public affair's director explained, quote, ``We believe 
the risk of climate change is real and we are committed to 
being part of the solution.'' However, ExxonMobil's corporate 
website recently stated, and I quote, ``Current scientific 
understanding provides limited guidance on the likelihood, 
magnitude, or timeframe.''
    This seems like a double-down on their old-fashioned 
playbook of denial and obfuscation to me.
    So Dr. Hoffert, do you agree with ExxonMobil's statement 
highlighted on the screen, the one that I just read, where they 
say that----
    Mr. Hoffert. Please read it.
    Ms. Wasserman Schultz. ``Current scientific understanding 
provides limited guidance on the likelihood, magnitude, or 
timeframe.''
    Mr. Hoffert. Could you please say when that statement was 
made?
    Mr. Raskin. 2018.
    Ms. Wasserman Schultz. Last year.
    Mr. Hoffert. Okay. Of course, that's absolutely incorrect. 
As far as something like 90--over 95 percent-- of scientists 
who publish in peer-reviewed journals--and that's very 
important to us because it means it's been vetted and 
critically reviewed--agree that humans are having an effect, a 
noticeable effect on climate.
    And it's more quantitative than that. As I mentioned 
before, we call this era, the era of the Anthropocene, meaning 
that humans are now the dominant effect on the environment of 
the Earth, for better or worse.
    Of course, the evidence--and I've been working on this for 
30 years--has increasingly shown that the prediction of climate 
change from CO2 emissions, mainly from fossil fuels, has 
increased--has eventually caused climate change.
    Starting from back in the 1980's, when the Earth was 
actually cooling, I remember I was working at the Goddard 
Institute for Space Studies, we made an estimate that the 
climate change would start----
    Ms. Wasserman Schultz. My time is shrinking.
    Mr. Hoffert. Sorry about that. It's an interesting story.
    Ms. Wasserman Schultz. It is, I'm confident. And you're a 
former Exxon consultant, correct?
    Mr. Hoffert. I'm a former Exxon consultant, yes.
    Ms. Wasserman Schultz. Okay. Thank you so much.
    Dr. Garvey, how would you respond to the claim that science 
provides limited guidance about the risks posed by climate 
change?
    Mr. Garvey. Let me just start by saying that I've not 
studied climate change for the last 30 years. I was a 
researcher at Exxon for 5. But I would say that there's a lot 
of information in the literature that provides strong and clear 
guidance as to what the planet is likely to be subject to.
    Ms. Wasserman Schultz. And do you believe that ExxonMobil 
is committed to being part of the solution?
    Mr. Garvey. I don't feel comfortable commenting on that. I 
really don't know.
    Ms. Wasserman Schultz. You don't know. Okay.
    Dr. Oreskes, what do you think ExxonMobil is doing--is 
trying to do here with scientifically inaccurate statements 
like this?
    Ms. Oreskes. I think they're trying to do the same thing 
that we know they've done for 30 years, which is to confuse 
people, to make people think that the issue is not sufficiently 
certain as to provide a basis for moving forward.
    And if I could just answer the question you put to Mr. 
Garvey.
    Ms. Wasserman Schultz. Yes.
    Ms. Oreskes. We know that ExxonMobil is not really 
committed to action on climate change because of their 
expiration profile.
    I'm a geologist by training. I started my career as an 
expiration geologist. When you explore for new oil and gas 
reserves, you are committing to developing and using those 
reserves 20, 30, 40, 50, even 100 years into the future, and 
that belies their claim to be committed to this issue.
    Ms. Wasserman Schultz. Yes. And when they bury a statement 
that clearly is the opposite of what their public affairs 
director said, that they are essentially trying to speak out of 
both sides of their proverbial mouth.
    Ms. Oreskes. Exactly.
    Ms. Wasserman Schultz. Dr. Ali, how would you describe the 
seriousness with which the company has responded to warnings 
that climate change will have disproportionate impacts on 
communities of color?
    Mr. Ali. I don't think they're serious at all.
    Ms. Wasserman Schultz. What gives you that feeling?
    Mr. Ali. Because they know, one, the impacts that they've 
had for decades now on our most vulnerable communities. They 
know also that they are going to drive more storms, more 
significant climatic events that are going to 
disproportionately hurt those communities. So I say that I 
don't think they're that serious about the concerns of our most 
vulnerable----
    Ms. Wasserman Schultz. Have you noticed that they've taken 
any significant steps toward addressing the impact of climate 
change and their effect on climate change in communities of 
color?
    Mr. Ali. I think the best way to answer that is that I've 
worked in over 500 communities, I have constant conversations 
with the leaders in those communities, and it's never once been 
relayed to me that they feel that they are doing anything of 
significance to better protect their lives.
    Ms. Wasserman Schultz. Thank you.
    I yield back the balance of my time.
    Mr. Raskin. Thank you very much.
    And I believe you----
    Mr. Roy. If I just might have 10 seconds. I need to correct 
the record, because I think I misspoke and said that 
grandfather-in-law's name was Alan Key, and it's Alan Reed. 
That was my mother-in-law's married name, and I think I 
misspoke. So I need to make sure that record gets corrected.
    Mr. Raskin. Okay. In the interest of domestic harmony, 
without objection, we will allow that.
    And now we go to the gentlelady from New York, Ms. Ocasio-
Cortez, for her five minutes of questioning.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman.
    I would like to thank all of our witnesses for coming here 
today to testify on very important aspects of one of the most 
pressing issues of our time.
    Dr. Garvey and Dr. Hoffert, is climate change real?
    Mr. Hoffert. Climate change has been taking place over all 
geologic history. Climate change from fossil fuels is not only 
real, but it is happening at much higher rates than we have 
recorded in the geologic record.
    Ms. Ocasio-Cortez. Thank you, Mr. Hoffert. I'm sorry----
    Mr. Hoffert. So there is no doubt about that.
    Ms. Ocasio-Cortez. Thank you, Mr. Hoffert. My apologies. I 
have to be expeditious with how I ask these questions.
    Mr. Hoffert. I understand.
    Ms. Ocasio-Cortez. Dr. Garvey, would you agree?
    Mr. Garvey. Yes, I would.
    Ms. Ocasio-Cortez. Are large corporations' use of fossil 
fuels one of the primary causes of climate change that we're 
seeing today?
    Mr. Hoffert. Yes, is the simple answer.
    Mr. Garvey. Same here, yes.
    Ms. Ocasio-Cortez. And how long has there been roughly a 
scientific consensus surrounding those two facts?
    Mr. Hoffert. I would say roughly 20 years, and that 
consensus is of actively working scientists who publish in 
peer-reviewed journals.
    Ms. Ocasio-Cortez. Thank you.
    And we have documents going back decades showing 
specifically that ExxonMobil or Exxon knew about climate 
change. In 1977, Exxon scientist James Black told Exxon's top 
executives that, quote, ``The most likely manner in which 
mankind is influencing the global climate is through carbon 
dioxide released from the burning of fossil fuels.'' This was 
in 1977.
    This was followed by an internal memo in 1979 which stated 
that, quote, ``The present trend of fossil fuel consumption 
will cause dramatic environmental effects before the year 
2050.''
    Dr. Garvey, would you say that the folks you worked with at 
Exxon agreed with the consensus on climate change?
    Mr. Garvey. Wholeheartedly.
    Ms. Ocasio-Cortez. Dr. Hoffert?
    Mr. Hoffert. I can testify to after 1981, because I was 
working at Exxon with a group that was doing the calculations, 
and, of course, we did know that.
    Ms. Ocasio-Cortez. Understood.
    Dr. Hoffert, your work with Exxon was focused on the carbon 
cycle and climate modeling. I have a slide up here. Are you 
familiar with this graph from 1982?
    Mr. Hoffert. I believe I am. Yes. That is a calculation. 
I'm not sure who specifically to attribute it to. It could have 
been done by either of the researchers I was working with.
    Ms. Ocasio-Cortez. Can you briefly explain what it shows?
    Mr. Hoffert. Sure. What it shows is a projection into the 
future of carbon dioxide levels and climate change associated 
with those carbon dioxide levels coming from fossil fuels. I 
don't have time for a detailed explanation, but that's it.
    Ms. Ocasio-Cortez. Right, but briefly.
    Mr. Hoffert. And it's a very accurate representation of 
what today's climate change actually is.
    Ms. Ocasio-Cortez. So this was a model from 1982----
    Mr. Hoffert. Right.
    Ms. Ocasio-Cortez.--with startlingly accurate projections 
into the present.
    Mr. Hoffert. That is correct.
    Ms. Ocasio-Cortez. The orange line shows the actual level 
of carbon dioxide in the atmosphere through this year, and the 
blue line shows the actual average temperature change.
    So in 1982, Exxon accurately--1982, seven years before I 
was even born--Exxon accurately predicted that by this year, 
2019, the Earth would hit a carbon dioxide concentration of 415 
parts per million and a temperature increase of one degree 
Celsius.
    Dr. Hoffert, is that correct?
    Mr. Hoffert. We were excellent scientists.
    Ms. Ocasio-Cortez. Yes, you were. Yes, you were.
    So they knew. They knew. And I presume they knew what some 
of the consequences of that one degree Celsius change would be, 
some of them, not all.
    Mr. Hoffert. Absolutely. I would like to have an 
opportunity to discuss that if someone asks me.
    Ms. Ocasio-Cortez. Dr. Hoffert, you have previously said 
that Exxon's historic denial was immoral and greatly set back 
efforts to address climate change. That's correct, yes?
    Mr. Hoffert. That is correct that I said that. I have good 
reason to say it.
    Ms. Ocasio-Cortez. And in 1998, API 's global science 
communications team action plan, which involved Exxon, Chevron, 
Southern Company, and more, laid out the industry's denial 
campaign. They knew that they were going to dump unknown at 
that time amounts of money, but a large investment in a climate 
denial and doubt campaign in the United States and around the 
world, correct?
    Mr. Hoffert. To the best of my knowledge, that's true. But 
I didn't know of that personally.
    Ms. Ocasio-Cortez. They said victory would be achieved 
when, quote, ``average citizens,'' quote/unquote, understand 
uncertainties in climate science.
    Dr. Garvey, would you say these goals accurately represent 
the mission of Exxon in the past and today?
    Mr. Garvey. Not in the past. Certainly not when I was 
there.
    Ms. Ocasio-Cortez. Would you say that currently the current 
environment that is fostered around doubt on scientific 
consensus could be a result of lobbying from the fossil fuel 
industry?
    Mr. Garvey. I would say so, but I should let my cohort--you 
should answer that.
    Ms. Ocasio-Cortez. Sure. Dr. Oreskes?
    Ms. Oreskes. Three hundred and 50 pages on that in my book 
``Merchants of Doubt.''
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Raskin. All right. Thank you very much, Ms. Ocasio-
Cortez.
    I think what we'll do, because we're really getting 
somewhere here, is take another round of questions if everybody 
would be up for it.
    I'd like to pick up where Ms. Ocasio-Cortez left off, with 
the 1998 ``Victory'' memo published by the American Petroleum 
Institute, and if we can put that up on the screen.
    Ms. Eubanks, let me come to you. You were the prosecutor at 
the Department of Justice who led the racketeering case against 
big tobacco. Is that right?
    Ms. Eubanks. That's right.
    Mr. Raskin. Okay. Does this situation remind you of the 
tobacco case? As I understand it, the tobacco companies were 
perfectly well aware of the connection between smoking and 
cancer, but they did everything in their power to obfuscate the 
connection and to confuse the public, and that caused, of 
course, a lot of unnecessary deaths from cancer.
    Are we in a similar posture with respect to the oil 
industry's suppression of the truth about climate change and 
the confusion of the public?
    Ms. Eubanks. Yes, it's very similar. In fact, what the 
government did in regards to the tobacco industry is it filed a 
racketeering case based upon the misrepresentations that were 
made.
    And they're very similar when you look at what the oil 
companies did here, is they denied that there was a consensus 
and at the same time their internal documents show that they 
knew that there was a consensus.
    Mr. Raskin. But on their behalf, I mean, all they were 
really saying was there's uncertainty. Everything about life is 
uncertain and scientists are paid to ask questions. What was 
really wrong with them saying, ``We don't know, it's not sure, 
it's uncertain''? Could the suggestion of uncertainty actually 
constitute actionable fraud against the public?
    Ms. Eubanks. Well, it really wasn't just uncertainty, it 
was--you can tell from the internal documents that they were 
certain. So they were misrepresenting factually what the 
knowledge was at the time and, therefore, delayed any action 
that could have gotten us to solutions much quicker.
    Mr. Raskin. So the representation of uncertainty in the 
scientific field when, in fact, there is a certainty of 
scientific consensus is itself actionable fraud?
    Ms. Eubanks. Yes, it is, and it was in the RICO case in 
tobacco. And there was an enterprise, a group of organizations, 
just like we see in the ``Victory'' memo, who got together to 
do this, to work and coordinate their activities. And the 
United States prevailed in that case, in the tobacco 
litigation, and many people at the time said that that was an 
improper use of RICO. It was sustained all the way up the 
appeal channel.
    Mr. Raskin. Okay. Dr. Oreskes, you seem to have studied the 
history of this. Was there a moment when ExxonMobil or Shell or 
any of the oil companies were tempted to act as first 
responders, to blow the whistle and to say--to try to get 
government to address the emergency of climate change with the 
requisite seriousness? Or was it always clear to them that they 
just wanted to keep a good thing going with the amount of 
profit that was being won from the fossil fuel industry?
    Ms. Oreskes. Well, I think that would be a very good thing 
to investigate.
    One of the things we don't know exactly is how the shift 
occurred from the good ExxonMobil that we heard about, that was 
doing high-quality science, publishing in peer-reviewed 
journals, to this period sometime after the late 1980's or 
1990's when ExxonMobil and other fossil fuel companies became 
involved in this organized effort to sow doubt.
    Mr. Raskin. Yes.
    Dr. Ali, I read an interesting book by Jared Diamond called 
``Collapse'' in which he talks about how civilizations 
collapse. And one of the key signs he invokes is when the 
governmental process is captured by specific subgroups, small 
special interest groups, to the exclusion of the interests of 
the many.
    Do you think we are in a situation where our energy policy, 
our environmental policy, our public policy has been dictated 
by a small subgroup of the society, and what we're trying to do 
now, at least what some people are trying to do, is to struggle 
for a broader representation in terms of government policy?
    Mr. Ali. Yes. The vast majority of citizens in our country 
know that climate change is real and they want real action on 
it. But we have, in my work at the Environmental Protection 
Agency and in other jobs that I've had, I've seen that there is 
that small group that have had huge influence in our policy. 
And I see that influence also shown here on Capitol Hill.
    Mr. Raskin. Are there any other countries on Earth where 
the scientific consensus on climate change is being doubted and 
interrogated by paid climate skeptics? Are there entire 
industries in the U.K. or Germany or France or Canada or Mexico 
where people's job is to go out and to try to cast doubt on the 
scientific consensus?
    Mr. Ali. We see it here in the United States, and probably 
the only other place is Russia.
    Mr. Raskin. Okay. And is anyone else on the panel aware 
that there are climate skeptic industries in other countries?
    Yes, Dr. Oreskes.
    Ms. Oreskes. Yes. One of the things we showed in our work 
is that this began in the United States, it was largely funded 
by American industries. But it has spread. We now do see paid 
climate denial in Australia, a little bit in Canada, and a 
little bit in the United Kingdom. But those are the only 
places, and we can show that it came from the United States.
    Mr. Raskin. Okay. My time is up.
    And, Mr. Roy, you're recognized--or, Mr. Massie, you're 
recognized for five minutes.
    Mr. Massie. Ms. Gunasekara, can you speak about the impacts 
of the Green New Deal, the proposed Green New Deal generally 
and then more specifically on low-income communities?
    Ms. Gunasekara. Yes, absolutely. Before I get to that, 
though, I want to go back to something one of the panelists 
said about one of the groups of scientists that I work with on 
the CO2 Coalition.
    I think it's important to understand that asking questions 
in the context of science is not denialism. The very essence of 
better scientific understanding is by asking tough questions 
and challenging the status quo.
    The scientists I know that work at the agency today, at 
EPA, that I've worked with internationally, and that I have 
worked here in Washington, DC, and across the entire United 
States, they ascribe to that.
    And what's different in the context of climate change 
science compared to other areas of science that I work closely 
on, including air quality assessments, is that anyone who 
speaks up and mentions some measure of uncertainty, they get 
attacked. So much to the point, one of the scientists I work 
with that's affiliated with the CO2 Coalition, his office on 
the University of Alabama's campus got shot up.
    And there is a massive backlash for any scientist willing 
to ask tough questions and have some measure of reason and 
balance as they are assessing these very complex and 
sophisticated issues.
    And I think complex and sophisticated is a better 
accounting of the current state of the climate science 
discussion that is ongoing in a number of different 
applications, including the relative sensitivity of the planet 
to a mild and manageably warming climate that we have seen and 
many have been talking about openly.
    So back to your original question, the problem with the 
Green New Deal is it's completely unrealistic. It would force 
an unnatural shift to renewable energy sources, which we talked 
about earlier, would lead to an exponential increase in the 
price of electricity. There are significant economic 
consequences to that.
    There are also significant problems in the fact that the 
technology that would be required to maintain access to 
reliable source of energy in a system that is overly reliant on 
solar and wind requires technology that just doesn't exist. It 
requires battery-type technology that, I was looking at 
statistics the other day, if all of the energy that's 
represented by existing battery power was charged in full, it 
could provide New York City with one hour of electricity and 
that's it.
    Not to say we shouldn't continue to seek out research and 
improve those technologies, which will no doubt continue, but 
just to say that we should force an unnatural shift to sources 
that were never designed to provide base load energy, which is 
the most important when it comes to providing affordable, 
reliable electricity, you're going to have a host of negative 
consequences.
    And for the communities, minority communities and low-and 
income-fixed communities, we talked about that, too. They spend 
a disproportionately higher amount of their take-home income on 
energy already. And if you increase that price, what they do is 
they make cuts elsewhere, including reducing trips to the 
doctor, foregoing meals, and foregoing other important 
healthcare initiatives.
    So it also has the ability to undercut future employment 
opportunities, and you're going to make the price of 
electricity go up, and you're also going to take away their 
ability to pay for it through a job.
    So it's extremely problematic, totally unrealistic, and 
fails to recognize the fact that the United States, we already 
lead the world in terms of emissions reductions. There's a very 
good news story. And it doesn't require restructuring the 
entire economy so that it's more aligned with socialism than it 
is with the democracy that's produced the innovation and the 
positive environmental impacts we're experiencing today.
    Mr. Massie. So one of the problems with low-income 
communities--and, by the way, this is Appalachia, where I live 
as well--is transportation to work. Would the Green New Deal 
increase the price of transportation and make it harder for 
people who are trapped in these communities to get to work?
    Ms. Gunasekara. Yes, I believe some of--a lot of the 
details around the Green New Deal and how it would ultimately 
be implemented are missing, but an underlying element of it is 
to shift vehicles away from internal combustion engine, fossil-
fueled vehicles, into electric vehicles.
    And today there's been, after decades of subsidies and 
whatnot, electric vehicles represent about three percent of 
total cars in use today.
    So there's a significant problem in terms of having the 
infrastructure to make it to where people could reliably get to 
work. And also the costs of the technology are much more 
expensive, which is why you see only a few are able to afford 
things like the Tesla and things along those lines.
    The other thing it ignores, too, is in the context of 
electric vehicles there's a lot of minerals in those, in the 
batteries, that if you were to suddenly shift and force large 
swaths of the population to drive them, there's major mining 
implications for that and exacerbation, something I've looked 
closely at, of child labor practices in Africa, where cobalt, 
which is a huge portion of these batteries, actually comes 
from.
    Mr. Raskin. Okay. The gentleman's time has expired.
    Mr. Massie. But for the record, I'm not against solar, I'm 
not against electric cars. I drive an electric car and my house 
is 100 percent solar. But I estimate I pay about twice the cost 
for transportation and electricity. So this is not a burden 
that we should put on low-income communities.
    Thank you, Mr. Chairman.
    Mr. Raskin. And thank you for your comments, and thanks for 
not exacerbating the mild and manageably warming climate that 
we're experiencing today.
    I will come now to Ms. Ocasio-Cortez for your final five 
minutes of questioning.
    Ms. Ocasio-Cortez. Thank you very much, Mr. Chair.
    Ms. Gunasekara, you're here advocating--I mentioned--I 
heard you mention the CO2 Coalition a few times. You believe 
they should have a credible seat at the table in climate 
policy, correct?
    Ms. Gunasekara. Yes. I believe all scientists should have a 
credible seat at the table.
    Ms. Ocasio-Cortez. So the CO2 coalition, are you aware that 
they are primarily funded by the Mercer family and the Koch 
brothers?
    Ms. Gunasekara. So I'm not familiar with the makings of the 
institution. I just recently came on board as an adviser that 
works with them, but I'm not a part of the infrastructure, so 
to speak.
    Ms. Ocasio-Cortez. I understand. So you may be unwitting to 
the fact that this coalition that you're a part of is funded by 
the Mercer family and the Koch brothers.
    Are you aware that the Koch brothers own oil refineries 
across several states in the United States and control some 
4,000 miles of gas pipeline and infrastructure?
    Ms. Gunasekara. Yes.
    Ms. Ocasio-Cortez. Do you think that there may be any role 
in their financing with the CO2 Coalition with the advancement 
of their private interests?
    Ms. Gunasekara. Again, I don't know about the financing 
with regard to the CO2 Coalition.
    I'll say my engagement with them, though, is not unwitting, 
it is active and inspired and educated, because a lot of these 
folks are scientists that have long been diminished and 
ignored. And the CO2 Coalition has----
    Ms. Ocasio-Cortez. So you knowingly work for the Koch 
brothers.
    Ms. Gunasekara. And the CO2 Coalition has----
    Ms. Ocasio-Cortez. Reclaiming my time. So you knowingly----
    Ms. Gunasekara [continuing]. has provided a platform for 
them to provide reality and balance in the context of the 
climate discussion.
    Ms. Ocasio-Cortez. Understood. Thank you for your testimony 
that you are not unwittingly working for the Koch brothers.
    Dr. Ali, we don't often think about climate change as a 
civil rights issue, but global warming is already wreaking 
havoc and displacing populations across the country and around 
the world.
    I've seen your work in climate justice and environmental 
justice. Can you talk to me a little bit about the consequences 
for communities of color on not acting on climate change?
    Mr. Ali. Well, if we don't act, then we are going to lose 
more lives. We are going to lose more African American lives, 
more Latinx lives, more Asian-Pacific Islander lives, more 
indigenous lives. We're going to lose more lives of White low-
income brothers and sisters as well, because all of them are 
the ones who are placed right on the front lines of many of 
these things that are going on.
    When you look at all of these places where the flooding is 
going on, you find that there are poor people who are there. 
You find that there are communities of colors who are the ones 
who, after they are hit, they can't come back home.
    If you look in the Little Pee Dee area in South Carolina, 
the Little Pee Dee River, folks who are hit by the floods that 
came through there now have the burden of having to raise their 
homes to be able to get insurance and to be able to come back 
home. And if they lose their homes, they lose that generational 
wealth. And we see these things playing out all across the 
country.
    Ms. Ocasio-Cortez. Do you recall roughly how many people 
died in Hurricane Katrina?
    Mr. Ali. Three thousand-plus.
    Ms. Ocasio-Cortez. Three thousand. Do you recall how many 
died in Hurricane Maria?
    Mr. Ali. Over 3,000.
    Ms. Ocasio-Cortez. Yes. So it's around 3,000 as well. So 
we're talking about 6,000 predominantly Black and brown lives 
that are wiped out.
    In terms of the science and the modeling, do we see largely 
that it's the global south and communities of color that may be 
bearing the brunt of the initial havoc from climate change?
    Mr. Ali. Without a doubt. Without a doubt. And least likely 
to be able to escape or to make the transitions that others who 
maybe have more wealth can do.
    Ms. Ocasio-Cortez. And terms of that wealth, the people who 
are producing climate change, the folks that are responsible 
for the largest amount of emissions, or communities or 
corporations, they tend to be predominantly White, correct?
    Mr. Ali. Yes, and every study backs that up.
    Ms. Ocasio-Cortez. And so I think it's important that we 
put into context here there's a difference between an 
electricity bill and people's lives. You know, my own 
grandfather died in the aftermath of Hurricane Maria. And we 
can't act as though the inertia and history of colonization 
doesn't play a role in this, that we didn't treat their lives 
equally, as if a different community were hit.
    Can you speak a little bit more to some of the specific 
communities that you've encountered in your work and the 
climate injustices that you've witnessed?
    Mr. Ali. Every place from Alaska, with the Gwich'in people, 
and a number of others who are losing their culture. They can 
no longer fish and hunt in the places because of the changes 
that are happening.
    Along the Gulf Coast, when you go to Cancer Alley and you 
see between New Orleans and Baton Rouge, you know, African 
American communities, other low-income communities who moved 
there after slavery was there, then all of these petrochemical 
facilities, literally as far as you can see, chemical plants, 
petrochemical plants, all these different things, and the folks 
can't escape because their housing values have now decreased so 
much that they can't move anywhere else.
    You can literally go across our country and see these 
impacts that are happening, and that's the most frustrating 
thing about these conversations, is that we never talk about 
people's lives. We don't talk about people's lives in 
Appalachia in a serious way, about the public health impacts 
that are happening to them. We don't talk about the people in 
the Rust Belt and the public health impacts that are happening 
and how their lives are being cut short also.
    We don't have a serious conversation--and I appreciated 
what the Congressman shared about, that he had a business 
that's there, an industry that's in his community. In 
Appalachia, in West Virginia, where I lived, we knew for 
decades that the coal industry was constricting and was going 
to eventually die out. And politicians were not thinking 
critically about what are the new industries that we should be 
getting in there.
    So when we talk about wind and solar and thermal and all 
these other opportunities, we do a disservice to our most 
vulnerable communities when we don't provide these new sets of 
opportunities for them. And when we don't, and when we prop up 
and support this fossil fuel industry that is impacting their 
lives, then we have some culpability in that.
    And I know no one is intentionally trying to kill people 
and hurt people. This issue of the environment has become one 
that has become politicized, and it shouldn't be. The 
environment should never be politicized.
    And we do not have to choose between the environment and 
jobs. That is a 20th century paradigm that no longer can be in 
place, because the IPCC report, the National Climate Assessment 
report, they are very clear. These scientists are not biased. 
They are telling us what's about to happen.
    And if we are not willing to do what's right, then we are 
responsible for our children's lives and our children's 
children's lives who are going to have to deal with these 
impacts.
    Mr. Raskin. All right. The gentlelady's time has expired. 
Thank you for that answer.
    And we go finally to the Ranking Member, Mr. Roy, for his 
final five-minute questioning.
    Mr. Roy. I thank the chairman.
    I thank my colleagues, Ms. Ocasio-Cortez. And thanks for us 
having additional time.
    Ms. Gunasekara, let me ask you a question. Do you know what 
the most deadly hurricane has been in North American history to 
the best of or at least of our knowledge?
    Ms. Gunasekara. I think it was over 100 years ago.
    Mr. Roy. Yes. It was in Galveston, Texas. We know well the 
damage there.
    Do you know what the impact was to minority communities 
there.
    Ms. Gunasekara. I don't know specifically.
    Mr. Roy. Yes, I don't know either, because I don't know 
what the racial makeup was in 1900. What I know is, is that 
Galveston got crushed and 6,000 to 12,000 people died in 1900.
    Let me ask you this question. We've heard a lot about, 
again here, the impact on lives, on those who are--whether 
they're minority communities or poor, those that we're talking 
about in kind of the context of the Civil Rights and Civil 
Liberties Subcommittee here.
    And my colleague here has raised this question, and I've 
raised this question, but I wanted you to explore it a little 
bit more, about the direct impact on the lives of the 
disadvantaged in the United States of America and/or around the 
world if we are to pursue an agenda of ending, for example, 
fracking, as at least one leading Democratic Presidential 
candidate has suggested.
    Ms. Gunasekara. Well, you'd not only put billions--sorry--
millions--up to millions--a couple hundred thousand and up to a 
million people out of work in this country alone, you'd be 
ascribing the families and the communities that depend on them 
as a source of income to a life of potential poverty.
    Around the world the implications are even graver. Fossil-
based energy enables the modern economy, and with the modern 
economy you have access to life-saving healthcare, 
refrigeration for food, all sorts of technologies that are 
built on fossil-based energy systems.
    And you can change people's lives. There are a billion 
people today that don't have access to electricity, and if we 
were to give them a reliable source of electricity through the 
most efficient technologies that we use here today, with some 
of these countries overseas, you'd not only be lifting up the 
standard of living in areas where they're living in extreme 
poverty, but you'd also be extending their life expectancy, and 
they'd be enjoying the benefits of a modern economy that we, 
frankly, take for granted in this country.
    Mr. Roy. Can I ask you a question? Do you oppose solar 
power?
    Ms. Gunasekara. No, not at all.
    Mr. Roy Wind power?
    Ms. Gunasekara. No.
    Mr. Roy. Which state is one of the leading states in solar 
power--or wind power, I'm sorry, as a percentage of its grid?
    Ms. Gunasekara. I believe you said earlier it was Texas. I 
was listening.
    Mr. Roy. Texas is, if not the leading, one of the leading 
sources, you know, of use of solar power--I'm sorry, wind 
power--to produce energy for its grid.
    This summer, however, because we have been taking down some 
of the base load coal-fired plants, we've had some situations 
where we were concerned about bumping up against and having to 
potentially have rolling blackouts. Why? Because we have 
difficulty in getting some of that wind power to places 
distributed around the state and to be able to rely on it as a 
core element of our grid, empowering our grid.
    And I earlier referenced the 84 percent of our overall 
power that comes--64 percent for fossil fuels, 20 percent from 
nuclear. And my question for you is, when we look backward 
here, as this hearing is supposed to be doing with respect to 
certain companies about our use of fossil fuels, what would 
have been possible in 1980 or 2000 at some point in terms of 
powering our grid in the United States of America, for the 
lifeblood of people's lives, with solar and/or wind power?
    Ms. Gunasekara. You certainly would not have seen the 
economic growth we've seen today with the continued use of 
coal-fired power plants and the exponential growth that has 
occurred alongside of the natural gas boom. You certainly 
wouldn't see the historic economic growth we've seen today 
under President Trump, where we have 6 million new jobs, the 
lowest unemployment rates across the board when it comes to 
women, minorities, and other previously disadvantaged 
communities that were held captive in poverty.
    Mr. Roy. And if I might add, the robust economic growth 
that has been led by the state of Texas, significantly, and 
that is in significant part because of natural gas and the 
ability to export liquefied natural gas. And how important is 
the exportation of liquefied natural gas to those countries 
around the world for those people who are predominantly 
concerned about CO2?
    Ms. Gunasekara. It's significantly important from 
geopolitical stability, No. 1, and No. 2, there are significant 
environmental benefits. There's a recent report from the 
National Energy Technology Lab, that did an assessment of 
lifecycle emissions affiliated with U.S. LNG sent to European 
and Asian markets compared to gas from Russia, and U.S. LNG 
shipped to European markets has 41 percent less emissions, 
lifecycle emissions, than if those same countries were to 
receive natural gas from another predominant producer like 
Russia.
    So significant implications in terms of reducing overall 
emissions but providing energy to the allies who need it abroad 
to, again, enable the modern economies that make life so much 
better.
    Mr. Roy. Thank you, ma'am.
    Mr. Raskin. All right. And thank you, Mr. Roy.
    Before I close, for the record I want to introduce four 
Exxon internal memoranda, dated June 6, 1978, October 16, 1979, 
August 3, 1998, and October 13, 1997, as well as the April 3, 
1998, American Petroleum Institute Action Plan. Without 
objection, those will be admitted into the record.
    Mr. Raskin. I want to thank all of our witnesses for really 
a remarkable presentation. It was edifying and educational for 
us. There are a number of other things going on, on Capitol 
Hill today which our subject is connected to in complicated 
ways. But nothing was done of more importance today than what 
you all have done, and future generations will thank all of you 
for participating in this hearing.
    And I want to thank Mr. Roy, Mr. Massie, Ms. Ocasio-Cortez, 
my colleagues, for coming and being here, and we will continue 
to investigate.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to each of 
you for responses. I ask all of our witnesses to please respond 
as promptly as you can to those.
    And with that, the hearing is adjourned.
    Mr. Roy. Thank you, Mr. Chairman.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
